<html>
<title> - EXAMINING CLIMATE CHANGE: A THREAT TO THE HOMELAND</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


           EXAMINING CLIMATE CHANGE: A THREAT TO THE HOMELAND

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2021

                               __________

                           Serial No. 117-14

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-049 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

                Val Butler Demings, Florida, Chairwoman
Sheila Jackson Lee, Texas            Kat Cammack, Florida, Ranking 
Donald M. Payne, Jr., New Jersey         Member
Al Green, Texas                      Clay Higgins, Louisiana
Bonnie Watson Coleman, New Jersey    Mariannette Miller-Meeks, Iowa
Bennie G. Thompson, Mississippi (ex  Andrew R. Garbarino, New York
    officio)                         John Katko, New York (ex officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
                  Kenyatta Collins, Subcommittee Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Val Butler Demings, a Representative in Congress 
  From the State of Florida, and Chairwoman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Kat Cammack, a Representative in Congress From the 
  State of Florida, and Ranking Member, Subcommittee on Emergency 
  Preparedness, Response, and Recovery:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     9

                               Witnesses

Mr. Bill Nye, Science Educator and CEO, On Behalf of The 
  Planetary Society:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Ms. Alice C. Hill, David M. Rubenstein Senior Fellow for Energy 
  and Environment, On Behalf of the Council on Foreign Relations:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Curtis Brown, State Coordinator and Co-founder, Virginia 
  Department of Emergency Management, Commonwealth of Virginia, 
  On Behalf of the Virginia Department of Emergency Management 
  and Institute for Diversity and Inclusion in Emergency 
  Management:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29
Ms. Pamela S. Williams, Executive Director, BuildStrong 
  Coalition:
  Oral Statement.................................................    33
  Prepared Statement.............................................    34

                             For the Record

The Honorable Kat Cammack, a Representative in Congress From the 
  State of Florida, and Ranking Member, Subcommittee on Emergency 
  Preparedness, Response, and Recovery:
  Letter From the Florida Division of Emergency Management.......     5

 
           EXAMINING CLIMATE CHANGE: A THREAT TO THE HOMELAND

                              ----------                              


                         Tuesday, June 8, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., via 
Webex, Val Butler Demings [Chairwoman of the subcommittee] 
presiding.
    Present: Representatives Demings, Jackson Lee, Payne, 
Green, Watson Coleman, Cammack, Miller-Meeks, and Garbarino.
    Also present: Representatives Barragan and Clarke.
    Mrs. Demings. The Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order.
    The subcommittee is meeting today to receive testimony on 
``Examining Climate Change: A Threat to the Homeland.''
    Without objection, the Chair is authorized to declare the 
subcommittee in recess at any point.
    I would like to say good afternoon to all of you and thank 
you so much for joining us today to our witnesses, as well as 
our amazing Members.
    We are here today to discuss climate change and our 
Nation's response. Climate change is a major threat to our 
country. The U.S. Department of Homeland Security's mission is 
to, ``secure the Nation from the many threats we face.'' 
Therefore, the Department's mission includes taking action to 
address the effects of climate change.
    Already the impacts of climate change on communities across 
the country extract devastating human and financial costs. If 
we fail to address the challenges posed by climate change, 
those costs will only increase.
    Science concludes that climate change is real, and it is 
increasing in the severity and the frequency of extreme weather 
events. According to NOAA, during 1980, the United States has 
sustained close to 300 weather and climate disasters, like 
catastrophic hurricanes, flooding, and wildfires, where overall 
financial damages reached or exceeded $1 billion, and the total 
costs of these events now exceeds $1.9 trillion.
    In 2020, for example, multiple extreme weather events, like 
Tropical Storm Eta and Hurricane Sally, to name only 2, 
severely impacted the Ranking Member and my home State of 
Florida and the southeastern U.S. region, and each storm 
respectfully resulted in more than $1 billion of financial 
damages for the United States.
    Last week, the Federal Reserve Chairman, Jerome Powell, 
acknowledged the serious risk the climate crisis poses to the 
United States and global economy, stating, ``There is no doubt 
that climate change poses profound challenges for the global 
economy and certainly the financial system.''
    Since 2013, including in 2021, the U.S. Government 
Accountability Office included the Federal Government's fiscal 
exposure to the risk of climate change in the office's High-
Risk List report. To save lives and to lower the Federal 
Government's fiscal exposure to climate change, GAO stated, 
``The Federal Government needs a cohesive, strategic approach 
with strong leadership and the authority to manage risks across 
the entire range of related Federal activities.''
    Reports released by both the U.S. Department of Homeland 
Security and the U.S. Department of Defense categorize climate 
change as an urgent growing threat based on its ability to 
cripple critical infrastructure, deplete military resources, 
and fuel terrorism.
    Despite the pressing need to address the risks posed by 
climate change and despite the progress that has been made by 
the Obama administration, President Trump disregarded these 
challenges, increased the likelihood that Americans would 
experience these risks and took steps to eliminate Federal 
research and response climate change programs.
    In contrast, through multiple Executive Orders on the 
climate crisis and by providing $1 billion to communities 
through FEMA's Pre-Disaster Building Resilient Infrastructure 
and Communities program and through the Biden administration's 
plan to invest in resilient critical infrastructure through the 
American Jobs Plan and the administration's budget proposal, 
President Biden continues to take swift and bold action to 
restore America's leadership on climate issues and confront the 
risks posed by climate change.
    In preparing for and responding to the effects of climate 
change, DHS, FEMA, and the broader Federal Government must 
include conscious planning for racial and socioeconomic 
disparities, and that is why the Biden administration is taking 
action on environmental justice issues through the creation of 
the White House Environmental Justice Advisory Council and 
other initiatives.
    Additionally, DHS Secretary Mayorkas has also taken steps 
to inform the Department's climate response programs to include 
the goals of advancing equity and increasing resilience for 
vulnerable and high-risk communities. Responding to climate 
change will take a unified effort among Federal, State, local, 
Tribal, and territorial governments, and private-sector 
partners, and President Biden's leadership, along with the 
sustained focus by Members of this subcommittee are essential 
to that effort.
    It is with sincere gratitude that I again welcome our 
witnesses here today. Thank you all for agreeing to share your 
insight with this subcommittee and with the public. We look 
forward to hearing your testimony.
    [The statement of Chairwoman Demings follows:]
                  Statement of Chairwoman Val Demings
                              June 8, 2021
    We are here today to discuss climate change and our Nation's 
response. Climate change is a major threat to our country.
    The U.S. Department of Homeland Security's mission is to, and I 
quote, ``secure the Nation from the many threats we face,'' unquote. 
Therefore, the Department's mission includes taking actions to address 
the effects of climate change. Already, the impacts of climate change 
on communities across the country extract devastating human and 
financial costs; and if we fail to address the challenges posed by 
climate change those costs will only increase.
    The science is in, climate change is happening, and it is 
increasing the severity and frequency of extreme weather events. 
According to NOAA, since 1980, the United States has sustained close to 
300 weather and climate disasters, like catastrophic hurricanes, 
flooding, and wildfires, where overall financial damages reached or 
exceeded $1 billion, and the total cost of these events now exceeds 
$1.9 trillion. In 2020, for example, multiple extreme weather events, 
like Tropical Storm Eta and Hurricane Sally, to name only 2, severely 
impacted my home State of Florida and the Southeastern U.S. region, and 
each storm, respectively, resulted in more than $1 billion of financial 
damages for the United States.
    Last week, the Federal Reserve Chairman, Jerome Powell, 
acknowledged the serious risks the climate crises poses to the United 
States and global economy, stating, and I quote: ``There is no doubt 
that climate change poses profound challenges for the global economy 
and certainly the financial system.'' Unquote. Since 2013, including in 
2021, the U.S. Government Accountability Office included the Federal 
Government's fiscal exposure to the risks of climate change in the 
Office's High-Risk List report.
    To save lives, and to lower the Federal Government's fiscal 
exposure to climate change, GAO stated, and I quote, ``the Federal 
Government needs a cohesive, strategic approach with strong leadership 
and the authority to manage risks across the entire range of related 
Federal activities,'' unquote. Reports released by both the U.S. 
Department of Homeland Security and the U.S. Department of Defense, 
characterize climate change as an urgent, growing threat based on its 
ability to cripple critical infrastructure, deplete military resources, 
and fuel terrorism.
    Despite the pressing need to address the risks posed by climate 
change, and despite the progress that had been made by the Obama 
administration, President Trump, disregarded these challenges, 
increased the likelihood that Americans would experience these risks, 
and took steps to eliminate Federal research and response climate 
change programs. In contrast, through multiple Executive Orders on the 
climate crisis, and by providing $1 billion to communities through 
FEMA's Pre-Disaster Building Resilient Infrastructure and Communities 
program, and through the Biden administration's plan to invest in 
resilient critical infrastructure through the American Jobs Plan and 
the administration's budget proposal, President Biden continues to take 
swift and bold action to restore America's leadership on climate issues 
and confront the risks posed by climate change.
    In preparing for and responding to the effects of climate change, 
DHS, FEMA, and the broader Federal Government, must include conscious 
planning for racial and socioeconomic disparities. And that is why the 
Biden administration is also taking action on environmental justice 
issues through the creation of the White House Environmental Justice 
Advisory Council and other initiatives. Additionally, DHS Secretary 
Mayorkas has also taken steps to inform the Department's climate 
response programs to include the goals of advancing equity and 
increasing resilience for vulnerable and high-risk communities.
    Responding to climate change will take a unified effort among 
Federal, State, local, Tribal, and territorial governments and private-
sector partners, and President Biden's leadership, along with the 
sustained focus by Members of this subcommittee are essential to that 
effort. It is with sincere gratitude that I welcome our witnesses here 
today. Thank you for agreeing to share your insight with this 
subcommittee and with the public. We look forward to your testimony.

    Mrs. Demings. It is now my pleasure to recognize the 
Ranking Member of this subcommittee, the gentlewoman from 
Florida, Mrs. Cammack, for an opening statement.
    Mrs. Cammack. Thank you, Madam Chairwoman.
    I hope you can all hear me. Can you hear me OK?
    Mrs. Demings. Yes.
    Mrs. Cammack. OK. Awesome. It is a little difficult when we 
are all out in the field. You never know exactly what kind of 
broadband connection you are going to get, so I appreciate 
that.
    Thank you, Chairwoman Demings.
    2020 saw one of the worst fire seasons in history, burning 
millions of acres along the West Coast, and in February 2021, 
ice storms in Texas left millions without power or safe water 
to drink. In March of this year, a tornado outbreak caused 
wide-spread damage to several southern States, and in our home 
State of Florida, as the Chairwoman and I are both proud to 
call Florida home, you know, we are certainly no stranger to 
intense weather events. Just last year, Hurricane Sally flooded 
Florida's panhandle dropping 4 inches of rain in just 4 hours. 
In 2018, Hurricane Michael--well, we all know that it 
devastated Florida's Gulf Coast and was the first Category 5 
hurricane to make landfall in mainland United States since 
1992.
    Now, as we move through the second week of Atlantic 
hurricane season, it is important to remember that while we 
cannot control the weather, we can take steps to prepare, and 
it is pre-disaster mitigation efforts by individuals and policy 
makers, first responders, and emergency preparedness 
professionals that ensure that no geographic region of our 
country is left unsupported.
    Mitigation activities, such as strengthening and upgrading 
existing infrastructure from all hazards, raising structures in 
identified flood zones, buying flood insurance to protect 
personal property, installing hurricane shutters and other 
protective measures, as well as clearing dead vegetation to 
reduce the risk of wildfire all have the potential to limit the 
negative effects of natural disasters.
    FEMA's Hazard Mitigation Grant Program has helped 
communities implement hazard mitigation measures following a 
Presidential major disaster declaration to reduce the risk of 
loss of life and property from future disasters.
    Now, Florida's 2018 State Hazard Mitigation Plan highlights 
4 main goals with corresponding objectives to include 
implementation of an effective comprehensive State-wide Hazard 
Mitigation Plan, supporting local and regional mitigation 
strategies, increasing public and private-sector awareness, and 
support for hazard mitigation in Florida, and support 
mitigation initiatives and policies that support the State's 
cultural, economic, and natural resources.
    These goals have been realized through recent mitigation 
projects. For example, the Hallandale Beach drainage project 
was recently completed using hazard mitigation grant program 
funds to address drainage issues that caused flooding 
throughout the city during storms.
    A new drainage project was also completed in Oakland Park 
using those same grant funds. Now, despite high tidal surges 
and high canal levels from Hurricane Irma in September 2017, no 
flood waters entered homes in Oakland Park communities that 
were served by this new system.
    Not only do mitigation activities aim to reduce injuries, 
deaths, and property damage, but they also limit the potential 
for damage to the economic sector.
    A December 2019 report by the National Institute of 
Building Sciences found that by designing buildings to meet the 
2018 Building Code standards, the National mitigation benefit/
cost ratio is $11 for every $1 invested. The report also found 
that the impacts of 23 years of Federal mitigation grants 
provided by FEMA, the Economic Development Administration, and 
HUD result in a National benefit of $6 for every $1 invested.
    Our approach to mitigation needs to shift from a pre-
disaster mindset so that we are anticipating the need and not 
responding after the fact and after the damage has been done.
    I am encouraged by recent changes to pre-disaster 
mitigation funding, including the introduction of the Building 
Resilient Infrastructure and Communities grant program, BRIC, 
makes additional Federal funds available to States, U.S. 
territories, Indian Tribal governments, and local communities 
for pre-disaster mitigation activities.
    Now, as we have hardened and continue to harden our 
defenses against a potential terrorist attack, we must also be 
prepared for the devastating effects of a severe weather event. 
As I have said, the Chairwoman and I being Floridians, I think 
we know this pretty much as well as anyone could. The reality 
is, quite frankly, that the natural disasters have always 
occurred, and they will continue to occur. We should use every 
single disaster as an opportunity to learn and improve our 
mitigation capabilities and strategies to decrease the loss of 
life and damage to our homes and infrastructure and to lessen 
the economic strain that these disasters present.
    I look forward to hearing our witnesses here today on how 
to continue our preparedness and resiliency in the face of 
unpredictable future natural disasters and all hazard 
emergencies.
    At this time, I ask unanimous consent to enter into the 
record this letter from the Florida Division of Emergency 
Management highlighting their mitigation and resiliency 
projects. With that----
    Mrs. Demings. Without objection.
    [The information follows:]
        Letter From the Florida Division of Emergency Management
                                      June 8, 2021.
The Honorable Kat Cammack,
Ranking Member, Subcommittee on Emergency Preparedness, Response, and 
        Recovery, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20510.
    Dear Ranking Member Cammack: Thank you for the opportunity to share 
information regarding mitigation programs and projects overseen by 
Florida Governor Ron DeSantis and the Florida Division of Emergency 
Management.
    The State is committed to ensuring communities have every resource 
they need for resilience planning and project implementation. In May, 
Governor DeSantis signed Senate Bill 1954. This bill, for the first 
time ever, requires the development of the Comprehensive Statewide 
Flood Vulnerability and Sea Level Rise Data Set, led by the Chief 
Science Officer. Additionally, it facilitates the development of 
Statewide sea level rise projections and other data necessary to 
determine the risks to inland and coastal communities. The data set is 
to be completed by July 1, 2022, and the Comprehensive Statewide Flood 
Vulnerability and Sea Level Rise Assessment is to be completed by July 
1, 2023. The Statewide Flooding and Sea Level Rise Resilience Plan is 
to be submitted by Dec. 1, 2023.
    This bill also authorizes local governments to develop Regional 
Resilience Coalitions to allow communities to join in resilience 
planning efforts and share technical assistance. It also creates the 
Florida Flood Hub for Applied Research and Innovation at the University 
of South Florida to coordinate efforts between the academic and 
research institutions of Florida.
    This bill is part of the largest investment in the State's 
history--over $640 million--to support efforts to ensure State and 
local communities are prepared to deal with the impacts of sea level 
rise, intensified storms and flooding.
    In addition, the Division houses the Bureau of Mitigation, which is 
an integral part of the agency. Due to Florida's weather, geography and 
miles of coastline, the State is highly vulnerable to disasters. To 
assist communities in reducing the impacts of these disasters, the 
Bureau of Mitigation administers three Federal mitigation grant 
programs: the Hazard Mitigation Grant Program, the Building Resilient 
Infrastructure and Communities Program and the Flood Mitigation 
Assistance Program.
    The Federal mitigation grant programs play a significant role in 
the development of mitigation programs throughout the State. To 
supplement those programs, the Division has taken additional efforts to 
support disaster resiliency including loss avoidance studies, a 
Statewide interagency working group called Mitigate FL to discuss 
ongoing mitigation efforts and the Local Mitigation Strategy system.
    The Division's framework for mitigation starts with the State 
Hazard Mitigation Plan. The purpose of the State Hazard Mitigation Plan 
is to reduce death, injuries, and property losses caused by natural 
hazards in Florida. The 2018 plan serves several purposes, including 
the implementation of a comprehensive mitigation program and guidance 
to ensure that the State effectively uses available mitigation funding.
    Though the State Hazard Mitigation Plan, the State is eligible to 
receive additional funding through the Hazard Mitigation Grant Program. 
This program supports projects that specifically reduce disaster 
losses. The Division works with local governments to develop projects 
that address an existing issue. For example, the Division recently 
completed the Hallandale Beach Drainage Project through this program. 
This project addressed drainage issues throughout the city that caused 
flooding during storms. To prevent future flooding, the city is 
constructing a system that would manage stormwater in 195 acres of 
residential and commercial properties. The project also includes the 
installation of drainage pipes and pressurized pump stations. 
Typically, projects within this program range from retrofitting public 
structures, drainage projects and elevation of private structures.
    As of June 1, the State is currently managing $1 billion in funding 
through the Hazard Mitigation Grant Program.
    The Division also administers the Flood Mitigation Assistance 
Program. This program provides funding specifically for projects 
intended to reduce or eliminate the risk of repetitive flood damage to 
buildings and structures insurable under the National Flood Insurance 
Program. Eligible projects include property acquisition and structure 
demolition, structure elevation, dry floodproofing, soil stabilization 
and other community flood mitigation projects.
    The Division also supports the Local Mitigation Strategy system. 
FEMA requires local governments to develop and adopt such hazard 
mitigation plans as a condition for receiving certain types of non-
emergency disaster assistance, including funding for mitigation 
projects. These plans are referred to as local mitigation plans. 
Jurisdictions must update their hazard mitigation plans and re-submit 
them for FEMA approval every 5 years to maintain eligibility. Local 
mitigation plans identify the natural hazards that may affect a single 
or multiple local jurisdictions, such as a town, city, or county. Plans 
assess risks and vulnerabilities, identify actions to reduce losses 
from those hazards identified, and establish a coordinated process to 
implement the plan using a wide range of public and private 
investments.
    To ensure jurisdictions continue to be eligible for funding, the 
Division provides technical assistance to counties as they update their 
plans and also provides approvals for local plans. The Division has 
also developed a Florida Review Tool for counties that streamlines the 
review process and has issued a local mitigation strategy manual that 
provides specific guidance during the planning process.
    Although the State has seen great success through mitigation 
efforts, the Division has also identified challenges associated with 
mitigation funding and projects.
    The biggest challenge will be ensuring local governments are able 
to receive funding quickly. The State receives certain mitigation 
funding, such as the Hazard Mitigation Grant Program, through FEMA 
obligations. Due to COVID-19, FEMA will be managing Public Assistance 
reimbursement funding from every eligible State, county, nonprofit and 
place of worship that has disaster-related costs associated with COVID-
19. The agency will be simultaneously providing obligations to eligible 
applicants, while also supporting other disaster responses, such as 
hurricanes. The Division is anticipating a delay in funding due to the 
high volume of applicants, which may impact how quickly the Division 
can disburse funds to local governments. While we continue to await 
additional guidance, the Division will continue to work with local 
governments to ensure they have all available resources as they 
continue to create resilient communities that are prepared to withstand 
any disaster.
    Another challenge includes the Building Resilient Infrastructure 
and Communities program. The recent announcement regarding the 
increased funding for this program in fiscal year 2021-2022 is an 
exciting investment in mitigation. However, we continue to advocate for 
additional funding for this program. In Florida, there are currently 
mitigation projects totaling up to $20 billion that are awaiting 
funding. We hope this program continues to grow so we can support all 
mitigation projects intended to reduce disaster impacts. Additionally, 
with the recent announcement, a portion of this funding will be 
required to support underserved communities in areas with a high Social 
Vulnerability Index, as defined by the Centers for Disease Control and 
Prevention. The Division is concerned that underserved communities may 
not be able to support the 25 percent cost share through this program. 
We recommend that the cost share either be reduced or waived for 
entities in areas with a high Social Vulnerability Index.
    Overall, mitigation and supporting resilient communities continue 
to remain top priorities for the Division. The Division has compiled 
information related to all mitigation programs on the Division's 
website and we encourage our partners to visit FloridaDisaster.org/DEM/
Mitigation for more in-depth information regarding mitigation efforts 
within the State.
    The Division looks forward to continuing to work closely with local 
governments as they develop mitigation projects for their communities. 
Thank you again for providing us with the opportunity to share 
information on our programs within the State and please let me know if 
we can be of further assistance.
            Sincerely,
                                             Kevin Guthrie,
                                                          Director.

    Mrs. Cammack. Thank you. With that, I yield back to the 
Chairwoman.
    [The statement of Ranking Member Cammack follows:]
                Statement of Ranking Member Kat Cammack
    2020 saw one of the worst fire seasons in history--burning millions 
of acres along the West Coast. In February 2021, ice storms in Texas 
left millions without power or safe water to drink. In March of this 
year, a tornado outbreak caused widespread damage to several southern 
States.
    And in my home State of Florida, we are certainly no stranger to 
intense weather events. Just last year, Hurricane Sally flooded 
Florida's Pan Handle--dropping 4 months of rain in just 4 hours. And in 
2018, Hurricane Michael, that devastated Florida's Gulf Coast, was the 
first Category 5 hurricane to make landfall in mainland United States 
since 1992.
    As we move through the second week of Atlantic Hurricane Season, 
it's important to remember that while we can't control the weather, we 
can take steps to prepare. Pre-disaster mitigation efforts by 
individuals, policy makers, first responders, and emergency 
preparedness professionals ensure that no geographic region of the 
country is left unsupported.
    Mitigation activities such as strengthening and upgrading existing 
infrastructure from all-hazards, raising structures in identified flood 
zones, buying flood insurance to protect personal property, installing 
hurricane shutters and other protective measures, and clearing dead 
vegetation to reduce the risk of wildfire all have the potential to 
limit the negative effects of natural disasters.
    FEMA's Hazard Mitigation Grant Program helps communities implement 
hazard mitigation measures following a Presidential Major Disaster 
Declaration, to reduce the risk of loss of life and property from 
future disasters.
    Florida's 2018 State Hazard Mitigation Plan highlights 4 goals with 
corresponding objectives to include:
  <bullet> Implement an effective comprehensive State-wide hazard 
        mitigation plan;
  <bullet> Support local and regional mitigation strategies;
  <bullet> Increase public and private-sector awareness and support for 
        hazard mitigation in Florida; and
  <bullet> Support mitigation initiatives and policies that protect the 
        State's cultural, economic, and natural resources.
    These goals have been realized through recent mitigation projects. 
For example, the Hallandale Beach Drainage Project was recently 
completed using Hazard Mitigation Grant Program (HMGP) funds to address 
drainage issues that caused flooding throughout the city during storms. 
A new drainage project was also completed in Oakland Park using HMPG 
funds. Despite high tidal surges and high canal levels from Hurricane 
Irma in September 2017, no flood waters entered homes in Oakland Park 
communities served by the new system.
    Not only do mitigation activities aim to reduce injuries, deaths, 
and property damage, but they also have the potential to limit the 
economic impact of disaster recovery efforts.
    A December 2019 report by the National Institute of Building 
Sciences found that by designing buildings to meet 2018 building code 
standards, the National mitigation benefit-cost ratio is $11 for every 
$1 invested.
    The report also found that the impacts of 23 years of Federal 
mitigation grants provided by FEMA, the Economic Development 
Administration, and the Department of Housing and Urban Development, 
result in a National benefit of $6 for every $1 invested.
    Our approach to mitigation needs to shift to a pre-disaster 
mindset, so we are anticipating the need, and not responding after the 
damage is done.
    I am encouraged by recent changes to pre-disaster mitigation 
funding, including the introduction of the Building Resilient 
Infrastructure and Communities Grant Program (BRIC). BRIC makes 
additional Federal funds available to States, U.S territories, Indian 
Tribal governments, and local communities for pre-disaster mitigation 
activities.
    As we've hardened and continue to harden our defenses against a 
potential terrorist attack, we must also be prepared for the 
devastating effects of a severe weather event.
    The reality is that natural disasters have always occurred and will 
continue to occur. We should use every disaster as an opportunity to 
learn and improve our mitigation capabilities and strategies to 
decrease loss of life and damage to our homes and infrastructure, and 
to lessen the economic strain that disasters present.
    I look forward to hearing from our witnesses today on how to 
continue to improve our preparedness and resilience in the face of the 
unpredictable nature of disasters and all-hazard emergencies.

    Mrs. Demings. I want to thank the Ranking Member for her 
remarks.
    Also, I would like to remind the committee that we will 
operate according to the guidelines laid out by the Chairman 
and Ranking Member in their February 3 colloquy regarding 
remote procedures.
    Without objection, Members not on the subcommittee shall be 
permitted to sit and question the witnesses. Members may also 
submit statements for the record.
    [The statements of Chairman Thompson and Honorable Jackson 
Lee follow:]
                Statement of Chairman Bennie G. Thompson
                              June 8, 2021
    Climate change is very real and creating more frequent and extreme 
natural disasters. Extreme weather and its accompanying negative 
impacts make climate change one of the biggest threats to our homeland.
    For evidence of the impacts of climate change, you can look to the 
2020 Atlantic hurricane season, which was the most active and the 
fifth-costliest Atlantic hurricane season on record. The 2020 Atlantic 
hurricane season was so active that we ran out of names and proceeded 
to use the Greek alphabet. Also in 2020, we witnessed devastating 
California wildfires. By the end of the year, we had nearly 10,000 
fires that had burned through more than 4 million acres, making 2020 
the largest wildfire season on record in California.
    We are also seeing the impacts of climate change in my home State. 
Over the past year, Mississippi has dealt with several catastrophic 
weather events and, as a result, the State has received 6 storm-related 
Major Declarations and 5 Emergency Declarations. The damage from these 
horrific storms has caused more than $100 million in damages. In 
addition to the cost of extreme weather events, recent disasters are 
shining a light on long-standing inequities in which low-income and 
underserved communities suffer disproportionate impacts of climate 
change. These communities will continue to suffer disproportionately 
from severe weather unless we make equity a priority in addressing 
climate change.
    Policy makers cannot afford to ignore climate change as it 
threatens our infrastructure, agriculture, economy, health care, 
population, and so much more. For example, Federal Reserve Chairman 
Jerome Powell acknowledged that the climate crisis ``could impact the 
broader economy, including inflation, jobs and the financial sector.'' 
America lost years of progress on addressing climate change due to the 
Trump administration's outright refusal to accept science and its work 
to dismantle climate science programs across the Federal Government.
    I am proud that the Biden administration is taking climate change 
seriously. President Biden is committed to rebuilding our communities 
by investing in preparation for extreme weather events while also 
ensuring that policies tackling the climate crisis are more inclusive.
    We must be bold in addressing climate change. We need to make 
critical investments in mitigation and adaption investments today, to 
reduce damage from future extreme weather occurrences. I hope to hear 
from our witnesses today about how we can take bold steps to combat the 
on-going climate crisis. I look forward to working with the Biden 
administration and my colleagues in supporting communities in our fight 
to combat climate change and build stronger, more resilient 
communities.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
                              June 8, 2021
    Thank you Chairwoman Demings, and Ranking Member Cammack for 
convening this important hearing on ``Examining Climate Change: A 
Threat to the Homeland.''
    I welcome today's witnesses and look forward to their testimony.
  <bullet> Bill Nye, science educator and CEO, The Planetary Society;
  <bullet> Alice C. Hill, David M. Rubenstein senior fellow for energy 
        and environment, Council on Foreign Relations;
  <bullet> Curtis Brown, State coordinator, Virginia Department of 
        Emergency Management, co-founder, Institute for Diversity and 
        Inclusion in Emergency Management; and
  <bullet> Pamela S. Williams, executive director, BuildStrong 
        Coalition (Minority witness).
    This hearing will give Members an opportunity to hear testimony on 
the impacts of climate change, including extreme weather events, and 
their implications for homeland security.
    Climate change is a long-term change in the average weather 
patterns that have come to define Earth's local, regional, and global 
climates.
    These changes have a broad range of observed effects that are 
synonymous with the term.
    Changes observed in Earth's climate since the early 20th Century 
are primarily driven by human activities, particularly fossil fuel 
burning, which increases heat-trapping greenhouse gas levels in Earth's 
atmosphere, raising Earth's average surface temperature.
    These human-produced temperature increases are commonly referred to 
as global warming.
    Increases in Earth's climate has led to unprecedented melting of 
Artic ice, which eventually contributes to ocean rise.
    Additional water contributes to extreme weather by impacting the 
process of cloud formation, which increases the size of rainstorms and 
large weather systems that form hurricanes and typhoons.
    The stress that extreme weather is placing on the Nation's critical 
infrastructure cannot be understated.
    It is the task of the Committee on Homeland Security to take action 
to direct the work of the U.S. Department of Homeland Security (DHS), 
to address any threat to the homeland, no matter the source of the 
threat-including dangers posed by climate change.
    Climate change is not simply an issue--it is a threat with credible 
and uncompromising dangers.
    In January 2021, Secretary of Defense Lloyd Austin announced that 
the Defense Department ``will immediately take appropriate policy 
actions to prioritize climate change considerations in our activities 
and risk assessments, to mitigate this driver of insecurity.
    On April 22, 2021 Secretary of Homeland Security Alejandro N. 
Mayorkas made this statement, ``the impacts of the climate emergency on 
both our National and collective global security are vast,'' and 
continued by noting that, ``DHS will implement a new approach to 
climate change adaptation and resilience, and we will do so with the 
sense of urgency this problem demands.''
    Since 1980, the United States has sustained close to 300 weather 
and climate disasters ranging from catastrophic hurricanes to raging 
wildfires.
    The total cost of these disasters now exceeds $1.9 trillion 
according to the U.S. National Oceanic and Atmospheric Administration.
    Nevertheless, we know the true cost of climate change is real human 
pain and loss--the incalculable grief of losing loved ones, homes, and 
communities.
    To fail to address climate change is to fail our citizens.
    And by these standards, State officials in my home State 
categorically failed when a severe ice and snowstorm in the form of a 
polar vortex hit Texas in February 2021.
    It is expected that the costs incurred through lost income, 
property damage, and long-term reduction in economic activity due to 
the storm will amount to between $195 billion and $295 billion.
    The State of Texas official record of deaths caused by the ice 
storm currently stands at 151 dead, with the majority of the deaths 
centered in Harris County (home to Houston), Travis County (Austin), 
and Dallas.
    However, Buzzfeed News, using a method called ``excess deaths'' 
analysis, which has also been employed to calculate the full toll of 
the COVID-19 pandemic, found that even by the most conservative 
estimates, the true number is at least 3 times higher.
    The analysis, also reviewed by 3 independent experts, suggests that 
between 426 and 978 more people died during the week ending Feb. 20 
than what the State has accounted for.
    The best estimate from the analysis on excess deaths suggests that 
702 people were killed in the storm that week, which is nearly 4 times 
higher than the State's tally.
    Hurricane season 2021 began on June 1, 2021 and we may see storms 
that bring damaging destruction to the Gulf and Atlantic coasts and 
tropical areas of the Nation.
                            hurricane harvey
Death of Family
    It is a particularly painful tragedy from the Hurricanes of 2017, 
which took so much from us including 6 members of the Saldivar family.
    I still recall where I was when I learned that the family's bodies 
had been discovered in their van that was swept away by raging Harvey 
flood waters.
    My office received desperate calls from constituents who were 
trapped by flood waters.
    One instance involved over 100 men, women, and children at a gas 
station parking lot--the only patch of dry land in a residential area 
surrounded by flood water.
    Many elderly were without medication and there was no water or food 
for children who were in need.
    I worked to get city dump trucks, the only city vehicles capable of 
driving through flood waters, to that location before night when rescue 
operations would stop until dawn the next day.
    My work over the days following Harvey involved getting medical 
help, food, and water to people in areas cutoff by flood waters or 
damaged streets.
    The recovery from Hurricane Harvey is not finished.
    Today, there are still blue-tarped roofs in neighborhoods that have 
not gotten repaired following Harvey.
                         harvey by the numbers
    The 9-county Houston metro area impacted by Hurricane Harvey covers 
9,444 square miles.
    Harris County covers 1,778 square miles, enough space to fit New 
York City, Philadelphia, Boston, Chicago, Seattle, Austin, and Dallas, 
with room still to spare.
    There was over 41,500 square miles of land mass impacted by 
Hurricane Harvey and the subsequent flooding that covered an area 
larger than the States of Connecticut, Massachusetts, New Hampshire, 
Rhode Island, and Vermont combined.
    Hurricane Harvey dropped 21 trillion gallons of rainfall on Texas 
and Louisiana, most of it on the Houston Metroplex.
    In September 2017, NASA's Jet Propulsion Laboratory reported that 
Hurricane Harvey's rainfall created 275 trillion pounds of water, which 
caused the crust in and around Houston to deform and sink nearly 2 
cubic centimeters because of its weight.
    At its peak on September 1, 2017, one-third of Houston was under 
water, and leaving 34,575 in shelters across Texas.
    Hurricane Harvey is the largest housing disaster to hit the United 
States which left 203,000 damaged homes, of which 12,700 were 
destroyed.
    Thousands of others with severe damage to their homes were living 
with family or friends.
    Hurricane Harvey followed Hurricanes Katrina and Maria in 2005 and 
Hurricane Ike in 2008 with each hurricane season more damaging than the 
previous.
    The damage is real, the threat present, and the consequences grave.
    And there is no way to divide climate change from these 
catastrophes--one emerges from the other, and the science speaks to 
this in unyielding and irrefutable terms.
    According to the National Aeronautics and Space Administration 
(NASA), ``temperatures are increasing due to human activities, 
specifically emissions of greenhouse gases, like carbon dioxide and 
methane,'' and in 2020, Earth's global average surface temperature tied 
2016 as the warmest year on record, and even ``edged out 2016 by a very 
small amount, within the margin of error of the analysis.''
    Those who wish to reject science must understand that the evidence 
of climate change speaks louder than anything else and we must listen 
to what the climate is telling us.
    President Biden is listening and acting in the best interest of our 
Nation and our people.
    The President will not waiver in his fidelity to science and his 
commitment to the safety of the American People.
    The National Institute of Building Sciences (NIBS) reports that 
disaster losses across the country are growing about 6 percent a year, 
costing an average of $100 billion.
    However, there are policy tools at our disposal to greatly reduce 
these costs and make communities more resilient to the impact of 
damaging weather.
    The National Institute of Building Sciences found that every $1 of 
mitigation funding saves approximately $6 on future disaster costs.
    The Biden administration's directive for FEMA (Federal Emergency 
Management Agency) to provide $1 billion to communities through the 
Pre-Disaster Building Resilient Infrastructure and communities (BRIC) 
program is proof of the President's data-driven and human-centered 
approach to the climate crisis.
    President Biden is moving fast in the right direction.
    His Executive Order on Tackling the Climate Crisis at Home and 
Abroad and the Executive Order on Climate-Related Financial Risk 
represent a departure from his predecessor's failure to reckon with the 
threats of climate change.
    Moreover, President Biden's plan to invest in resilient critical 
infrastructure through the American Jobs Plan and the administration's 
budget proposal will shore up our communities, safeguard our country, 
and once again restore our global leadership.
    Our response to climate change necessitates coalition-building 
between activists, communities, the private sector, and Government.
    This will require a unified effort among Federal, State, local, 
Tribal, and territorial governments.
    The GAO's 2021 High-Risk Series reports testifies to the urgency 
and need for whole-of-Government coordination:
    The Federal Government needs a cohesive, strategic approach with 
strong leadership and the authority to manage risks across the entire 
range of related Federal activities.
    This strategy must also account for vulnerability, specifically the 
pre-existing vulnerabilities in many communities of color around the 
country who are disproportionally affected by the impacts of climate 
change.
    Texas is no exception.
    Following the winter storm, I worked to bring much-needed 
assistance to Houstonians through water and food deliveries, and the 
Austin Justice Coalition delivered food to more than 40 families around 
Austin.
    Around 90 percent of those families were Black or Latino.
    Joao Paulo Connolly, director of housing and community development 
at Austin Justice Coalition, spoke to this disparity.
    He observed that while the storm hit everyone, families of color in 
low-income areas often do not have a car or the funds to make speedy 
repairs on busted pipes--meaning the recovery process extracts a higher 
burden on them.
    Chauncia Willis, chief executive of the Institute for Diversity and 
Inclusion in Emergency Management, puts it bluntly:

``What you will see, as with COVID-19 and with any disaster, is 
disproportionate death and negative impacts for those who are most 
vulnerable among us.
``These inequities are easily identifiable before disaster and, of 
course, they're rooted in systemic bias, racism, and the country's 
anti-poverty mindset.''

    The toll that climate change is taking on low income and poor 
households should not be forgotten as we look at solutions for climate.
    The President's American Jobs Plan takes a broad view of the need 
to address failing infrastructure and the need to have more resilient 
infrastructure to better weather climate change.
    I look forward to witness testimony in today's hearing.

    Mrs. Demings. I now want to again welcome our panel of 
witnesses.
    The first witness is Mr. Bill Nye, appearing in his own 
capacity. Mr. Nye is the CEO of The Planetary Society, a 
nonprofit organization working to advance scientific study and 
co-founded by the famous planetary scientist Carl Sagan, Mr. 
Nye's former astronomy professor. Well-known for his work in 
the fields of science and engineering and his popular 
television show, ``Bill Nye, the Science Guy,'' Mr. Nye has 
made it his life's mission to help foster a scientifically 
literate society, one ready to confront the threats posed by 
climate change.
    Our second witness is Ms. Alice Hill, the David M. 
Rubenstein senior fellow for energy and the environment at the 
Council of Foreign Relations. Ms. Hill's work for the council 
focuses on climate change. Ms. Hill also served as a special 
assistant to President Obama and senior director for resilience 
policy on the National Security Council staff where Ms. Hill 
led the NSC's work on developing National policies to increase 
resilience to biological threats and climate change. Ms. Hill's 
public service also includes service with NDHS, as senior 
counselor to the Secretary in 2009. During her time there, Ms. 
Hill led the Department of DHS's first-ever climate adaptation 
plan and the formulation of strategic plans regarding 
catastrophic, biological, and chemical threats, including 
pandemics.
    Our third witness is the Virginia State coordinator for 
emergency management, Mr. Curtis Brown. Mr. Brown is the first 
African American to serve in that role. Mr. Brown is also the 
co-founder of the Institute of Diversity and Inclusion in 
Emergency Management. As a State official, Mr. Brown has a key 
role in the State's climate change response efforts and has 
worked to ensure Virginians, including those in the vulnerable 
and high-risk communities, have access to resources, 
information, and support.
    Mr. Brown has also served as deputy secretary of public 
safety and homeland security, regional emergency management 
administrator for the Hampton Roads Planning District 
Commission, and was also a professional staff member on the 
U.S. House of Representatives Committee on Homeland Security.
    Mr. Brown, welcome back. Thank you so much for being with 
us.
    Finally, but certainly not least, our fourth and final 
witness is Pamela Williams, the executive director of the 
BuildStrong Coalition, a group of individuals and organizations 
with the stated purpose of building a more resilient America. 
Prior to her time with the coalition, Ms. Williams served as 
counsel for the U.S. House Transportation and Infrastructure 
Subcommittee on Economic Development, Public Building, and 
Emergency Management. Ms. Williams also has experience working 
within the Federal Emergency Management Agency as associate 
chief counsel for legislation and policy and as deputy director 
of Congressional affairs.
    Ms. Williams, welcome back. We are so glad to have you with 
us.
    To all of our witnesses, thank you so much for being here.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize their statement for 5 
minutes, beginning with Mr. Bill Nye.

 STATEMENT OF BILL NYE, SCIENCE EDUCATOR AND CEO, ON BEHALF OF 
                     THE PLANETARY SOCIETY

    Mr. Nye. Chairwoman Demings, Ranking Member Cammack, and 
distinguished Members of this subcommittee, thank you indeed 
for the opportunity to testify before you today. It is an honor 
to share my thoughts on climate change and the threats our 
Nation faces because of it.
    My name is Bill Nye, as you may infer. These days I am a 
science educator and a television presenter. I may be known to 
you and your families as The Science Guy. I began my career as 
a mechanical engineer working at Boeing. My professional 
license is still in Washington State. I worked on aviation's 
FEMA acronym, Failure Effects and Modes Analysis. I was paid to 
solve physics problems and figure out what could go wrong on a 
747 airplane. I learned a great many things.
    First, a modern jetliner is an amazingly reliable, 
extraordinarily safe machine largely because it is subject to 
good regulations.
    Second, commercial airplanes only get into trouble when 
they take off with something that is already broken: A system 
the crew thought was working isn't working; then several things 
go wrong at once.
    When it comes to climate change, the analogy to things 
already broken, along with multiple problems developing at the 
same time, is compelling.
    Suppose Russian hackers had attacked the Colonial Pipeline 
while a hurricane was coming ashore at Gulf Port, Mobile, or 
Gainesville. Recently, the entire State of Texas, as was 
mentioned earlier, was shut down because of a snap of cold 
weather. It was the product of years of insufficient failure 
effect and modes analysis. It killed almost 200 people. Along 
with the heartache, the cost is estimated at $130 billion.
    These miserable outcomes could have been avoided for a 
fraction of what we will all end up paying. The pipeline hack 
was a mean-spirited thing and a lot of trouble. The mess in 
Texas was a disaster. But the next time or the next times may 
be much, much worse.
    Back in 1977, as you may have heard, I took a course from 
Professor Carl Sagan that eventually led to my day job as CEO 
of The Planetary Society, and Dr. Sagan often spoke of what he 
called comparative planetology. By comparing Earth's atmosphere 
with those of Mars and Venus scientists came to understand the 
importance of carbon dioxide and the greenhouse effect. You may 
have heard researchers at Exxon understood this too and wrote 
about the potential for disasters back in that same 1977, but 
we have done almost nothing about it.
    Greenhouse gases are inducing climate change here on Earth, 
and it is happening now on larger and larger scales. We are 
seeing bigger storms, more floods, more droughts, more fires, 
more loss of shoreline, and more businesses and people 
displaced as the ocean swells.
    Therefore, the sooner we stop adding greenhouse gases to 
our air, the better off we have a chance of being. If we don't 
stop, more of these events will happen, more of them will 
happen at the same time, and that will increase the likelihood 
of convergent problems.
    It was stated earlier in her opening statement, the Ranking 
Member said we can't control the weather. It turns out we are 
controlling the weather. Inadvertently, by accident, we are 
controlling the weather, and we have got to cut it out.
    Now, everything on an airplane, from the wheel under the 
nose to the light on the tip-top of the tail, is there for a 
reason. Anything extra that you put on an airplane would add 
weight, which would shorten the range, make the plane less 
efficient, make it more costly to fly. But even with that in 
mind, airplanes are required to carry all sorts of emergency 
equipment, life vests, rafts, exit doors right in the middle 
that no one ever uses. You want the plane to have everything it 
needs to fly normally but also everything it needs when things 
go wrong.
    These regulations are good. They keep us safe. So just like 
extra pieces and parts of an airplane that you don't need, we 
don't want regulations that we don't need. But when it comes to 
addressing climate change, regulations are essential. Having 
healthy neighborhoods where things do not stop working is a way 
to keep people healthy and working. It is why we have 
infrastructure, like smoke detectors, fire hydrants, and all of 
that plumbing so firefighters can keep us and the built 
environment we rely on safe.
    Now this is where you all come in, Members of this 
subcommittee. We want all of the rules we need to create all of 
the systems we need to address climate change.
    As you may know, I grew up right here in Washington, DC. I 
rode my Schwinn bicycle to the first few Earth Day events on 
the National Mall. I locked my bicycle to a flagpole, probably 
not allowed these days, but back then we emphasized individual 
actions. Every little bit hurts. That was one of the slogans. 
But when it comes to climate change, everybody----
    Mrs. Demings. Mr. Nye.
    Mr. Nye [continuing]. Has these big ideas----
    Mrs. Demings. Mr. Nye.
    Mr. Nye. Yes.
    Mrs. Demings. Can you hear me?
    Mr. Nye. Yes. I have 13 seconds?
    Mrs. Demings. You are actually out of time. But if there is 
something more that you would like to say, please do so during 
the question-and-answer period.
    So thank you so much.
    Mr. Nye. OK. I apologize for running over. I thought I set 
a stopwatch dead on. I apologize.
    [The prepared statement of Mr. Nye follows:]
                     Prepared Statement of Bill Nye
                          Tuesday, 8 June 2021
                    more than one problem at a time
    Chairwoman Demings, Ranking Member Cammack, and distinguished 
Members of this subcommittee, thank you for the opportunity to testify 
before you today. It is an honor to share my thoughts on climate change 
and the threats our Nation faces because of it.
    My name is Bill Nye. These days, I am a science educator and 
television presenter. I may be known to you and your families as the 
Science Guy. I began my career as a mechanical engineer working at 
Boeing. My professional license is still in Washington State. I worked 
on aviation's F.E.M.A. acronym, Failure Effects and Modes Analysis. I 
was paid to solve physics problems and figure out what could go wrong 
on a 747 airplane. I learned a great many things: First, a modern 
jetliner is an amazingly reliable, extraordinarily safe machine, 
largely because it is subject to good regulations. Second, commercial 
airplanes only get into trouble, when they take off with something 
already broken. A system the crew thought was working isn't working, 
then several things can go wrong at once.
    When it comes to climate change, the analogy to things already 
broken, along with multiple problems developing at the same time, is 
compelling. Suppose Russian hackers attacked the Colonial Pipeline, 
while a hurricane was coming ashore at Gulfport, Mobile, or 
Gainesville. Recently, the entire State of Texas was shut down, because 
it got a little chilly. It was the product of years of insufficient 
Failure Effects and Modes Analysis. It killed almost 200 people. Along 
with the heartache, the cost is estimated at $130 billion. These 
miserable outcomes could have been avoided for a fraction of what we'll 
all end up paying. The pipeline hack was mean-spirited and a lot of 
trouble; the mess in Texas was a disaster. But next time--or the next 
times, may be much, much worse.
    Back in 1977, I took a course from Professor Carl Sagan. It 
eventually led to my current day job as CEO of The Planetary Society. 
Dr. Sagan often spoke of what he called comparative planetology. By 
comparing Earth's atmosphere with those of Mars and Venus, we have come 
to understand the importance of carbon dioxide and the greenhouse 
effect. Per predictions by researchers at Exxon going back at least to 
that same 1977, greenhouse gasses are inducing climate change here on 
Earth, and it is happening now on larger and larger scales: Bigger 
storms, more floods, more droughts, more fires, more loss of shoreline, 
and more businesses and people displaced as the ocean swells. 
Therefore, the sooner we stop adding greenhouses gases to our air, the 
better off we have a chance of being. If we don't stop, more of these 
events will happen; more of them will happen at the same time, and that 
will increase the likelihood of convergent problems. Ask any Martian or 
Venusian.
    Everything on an airplane, from the wheel under the nose to the 
light on the tip-top of the tail is there for a reason. Anything extra 
would add weight, which would shorten the range, make the plane less 
efficient and more costly to fly. Even with that in mind, airplanes are 
required to carry all sorts of emergency equipment: Life vests, rafts, 
exit doors right in the middle that no one ever uses. You want the 
plane to have everything it needs to fly normally, but also everything 
it needs, when things go wrong.
    In the same way, we don't want regulations we don't need. But when 
it comes to addressing climate change, regulations are essential. It is 
in everyone's best interest to have rules that require us to stop 
adding greenhouse gasses to our skies as soon as possible, while 
providing reliable clean energy, reliable clean water, and reliable 
internet service to everyone. Having healthy neighborhoods where things 
do not stop working, is a way to keep people healthy and working. This 
is where you all come in. We want all the rules we need to create all 
the systems we need.
    I grew up here in Washington, DC. I rode my Schwinn bicycle to the 
first few Earth Day events on the National Mall. Back then, we 
emphasized individual actions. Every litter bit hurts, was one of the 
slogans. But when it comes to climate change, we need big ideas, huge 
ideas. Recycling water bottles alone will not address climate change or 
prepare us for disaster.
    I know what many of us are feeling. Climate change is frightening. 
The effects and changes are so big and coming so fast that many of us 
are in denial about the consequences. I've come to believe that climate 
change contrarians especially are just scared. So am I. You've probably 
read recent reports concerning decreasing birth rates world-wide. Ask 
around. Women and men everywhere are thinking twice about bringing kids 
into a world that's on fire. It's time to take action now. Let's build 
utility systems that work all the time. Let's invest in robust 
electrical grids, excellent water supplies, and cyber-secure control 
schemes for all of our infrastructure, especially the internet. Let's 
stop pumping and dumping greenhouse gasses into the air we all share. 
We can do this.
    In conclusion, I thank Chairwoman Demings, Ranking Member Cammack, 
and the Members of the subcommittee for allowing me to speak before you 
today. I appreciate the leadership this subcommittee has demonstrated 
on this important issue.
    I look forward to your questions.
                               Attachment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Mrs. Demings. It is OK. But thank you so much for your 
opening comments.
    At this time, I now recognize Ms. Alice Hill to summarize 
her statement for 5 minutes.

 STATEMENT OF ALICE C. HILL, DAVID M. RUBENSTEIN SENIOR FELLOW 
FOR ENERGY AND ENVIRONMENT, ON BEHALF OF THE COUNCIL ON FOREIGN 
                           RELATIONS

    Ms. Hill. Thank you so much, Chairwoman Demings and Ranking 
Member Cammack and Members of the subcommittee, for inviting me 
to testify today.
    As we have heard, climate change impacts are no longer a 
matter for the distant future. Last year, in the midst of a 
global pandemic, our country suffered 22 separate extreme 
weather events influenced by climate, each costing over a 
billion dollars, and that has been going on for quite a long 
time, seeing the United States pummeled by worsening disasters 
from climate change.
    America is simply not doing enough to prepare for the 
heightened threats posed by a changing climate. The Nation, in 
short, suffers from a large resilience gap. That gap needs to 
be closed to safeguard homeland security. Development of a 
National resilience strategy is essential, as you have noted, 
Chairwoman. Without a comprehensive approach, individual agency 
efforts could lead gaping holes in the Nation's resilience to 
climate threats.
    The Department of Homeland Security can and should play a 
central role in the effort to build a National resilience plan. 
Core to resilience is improved risk communication. The United 
States lacks comprehensive risk mapping that is sufficiently 
downscaled to inform Americans regarding the risks they face 
now, much less those they face in the near future. That means 
that we have many families and businesses who today rent and 
buy facilities that are destined to burn and flood.
    The Federal Government should compile risk information in a 
way that is easy to understand, interactive, has a visual 
format that permits people to determine what is ahead, what 
does it mean for me, what does it mean for my family, what does 
it mean for my company, and what does it mean for the United 
States. Without that, it is difficult for us to make the kinds 
of risk reduction choices that we need to make. As 
Representative Cammack stated, we need to prepare ahead. A 
National resilience plan would help us do that, and it would 
provide incentives to improve decision making about where and 
how we build.
    As you know, land use and building code choices rest almost 
entirely in the hands of State and local governments in the 
United States. Currently those officials encounter a moral 
hazard when they make choices about where buildings should 
occur and how it should occur since they know that the Federal 
Government may well end up footing most or all of the disaster 
costs after disaster strikes. This moral hazard has led to 
risky development occurring in many places across the Nation.
    We also need stronger building codes. As you have heard, 
according to the National Institute of Building Sciences, for 
every $1 we spent in disaster resistant building codes, we can 
avert $11 in damages. But despite this astonishingly high cost-
benefit, 65 percent of cities and towns across this Nation have 
failed to adopt modern disaster resistant codes. The Nation 
needs to accelerate the development and adoption of modern 
building codes that account for future climate risks.
    To protect homeland security, the Nation also must work to 
ensure that critical infrastructure continues to perform under 
new extremes. We saw this in Texas. Since it has been 
mentioned, we will see this in California this summer when 
wildfires streak across that State, and we will see it as 
hurricanes that are predicted to occur this season hit the 
United States.
    When the infrastructure fails, particularly the electric 
sector, it cascades, the damage cascades through all sectors, 
public health, transportation, communication, and we need to 
have resilient infrastructure that can take what we know will 
come with climate change.
    Climate change will also drive increased migration. We know 
that changing conditions can affect transnational crime, 
including terrorism. During extreme events, organized crime and 
extremists have been known to take advantage of a failed 
Government response to expand their territory and increase 
recruitment.
    We will also see increased pressure at our borders, as we 
are currently seeing with Central America immigrants. 
Immigrants that are seeking survival will move in the face of 
devastating climate events, either droughts or hurricanes, as 
we saw 2 back-to-back hurricanes this year in Central America. 
We need frameworks to get ahead and do this better, plan for 
where people will move.
    DHS should also continue to close the environmental justice 
gap----
    Mrs. Demings. Ms. Hill.
    Ms. Hill. Yes.
    Mrs. Demings. I am sorry, your time has expired.
    Ms. Hill. All right. Thank you.
    Mrs. Demings. Thank you so much for your testimony.
    Ms. Hill. Thank you.
    [The prepared statement of Ms. Hill follows:]
                  Prepared Statement of Alice C. Hill
    Thank you Chairman Demings, Ranking Member Cammack, and Members of 
the subcommittee for inviting me to testify before you today about 
climate change as a threat to the homeland. My remarks will focus on 
how the Department of Homeland Security (DHS) could better address the 
homeland threats posed by climate change to our country.
                              introduction
    Climate change impacts--bigger wildfires, heavier precipitation 
causing ``rain bombs,'' deeper droughts, greater temperature extremes, 
and sea-level rise--are no longer a matter for the distant future. They 
are already wreaking extensive damage to all 50 States and 6 
territories. Last year, in the midst of the coronavirus pandemic, the 
country suffered 22 separate weather events each costing over $1 
billion, according to the National Oceanic and Atmospheric 
Administration (NOAA). Americans in 2020 witnessed so many named storms 
in the Atlantic basin that meteorologists had to resort to the Greek 
alphabet for names; wildfires scorched over 10 million acres in the 
American west, spawning a new vocabulary word--``gigafire''--to 
describe a fire that burns more than a million acres; and probably the 
highest-ever recorded temperature on earth--130 degrees Fahrenheit--
registered in the aptly named Death Valley in California. Experts 
anticipate that this year will offer little respite.
    The 2021 hurricane season will likely bring above-average storm 
activity and firefighters across the American west are already bracing 
for a severe wildfire season. The property research firm, CoreLogic, 
has estimated that more than 31 million homes on the Gulf and Atlantic 
coasts, with a combined value of $8.5 trillion, face risk of damage 
from hurricane winds, and nearly 8 million homes are vulnerable to 
flooding from storm surge during the Atlantic hurricane season. The 
firm opined that as ``climate change continues to reshape the way 
storms behave, the risk . . . will continue to increase.''\1\ Close to 
90 percent of the American west is currently in drought, with over half 
of the area in extreme to exceptional drought. According to the U.S. 
Drought Monitor, this is the most intense and expansive drought this 
century. Snowpack fell to new record lows in some areas. Not 
surprisingly, wildfire researchers have forecasted a ``grim'' 2021 
wildfire season.\2\
---------------------------------------------------------------------------
    \1\ ``The 2021 Hurricane Report,'' CoreLogic, June 1, 2021, https:/
/www.corelogic.com/insights/storm-surge-
report.aspx?WT.mc_id=crlg_210527_MTXQB.
    \2\ Nicole Karlis, ``Wildfire researchers have a `grim' forecast 
for 2021's fire season, say it could be worse than 2020,'' Salon, April 
14, 2021, https://www.salon.com/2021/04/14/wildfire-researchers-have-a-
grim-forecast-for-2021s-fire-season-say-it-could-be-worse-than-2020/.
---------------------------------------------------------------------------
    These and other climate-worsened extremes do not only bring 
significant economic damage. They also cost lives, undermine public 
health, and threaten National security. Climate-fueled impacts cause 
cascading failures of infrastructure. As the Nation witnessed during 
Superstorm Sandy in 2012, the failure of the electric grid can pull 
down critical systems like transportation, communication, and 
wastewater treatment systems. Without sustained power, hospitals 
evacuated over 6,000 patients down darkened stairwells. Researchers 
have identified climate change as the cause of $8 billion of the 
estimated $70 billion in damages caused by the storm.\3\ According to 
the National Institute of Building Sciences (NIBS) 2020 report, 
disaster losses across the country are growing about 6 percent a year, 
costing an average of $100 billion.\4\
---------------------------------------------------------------------------
    \3\ Andrea Thompson, ``Climate Change Added $8 Billion to Hurricane 
Sandy's Damage,'' Scientific American, May 18, 2021, https://
www.scientificamerican.com/article/climate-change-added-8-billion-to-
hurricane-sandys-damage1/.
    \4\ Multi-Hazard Mitigation Council, A Roadmap to Resilience 
Incentivization, ed. K. A. Porter and J.Q. Yuan (Washington, DC: 
National Institute of Building Sciences, 2020), https://www.nibs.org/
files/pdfs/NIBS_MMC_RoadmapResilience_082020.pdf.
---------------------------------------------------------------------------
    America is not doing enough to prepare for the heightened threats 
posed by climate change. NIBS estimates that America's resilience 
investment gap exceeds $520 billion. The Center for Climate Integrity 
and Resilient Analytics calculates that $400 billion is needed for 
coastal protection in 22 States.\5\ To safeguard homeland security, the 
United States needs to better prepare itself for the new, harmful 
extremes that accompany rising temperatures. It needs to get smarter 
about risk reduction and resilience to future climate-worsened 
disasters. The Department of Homeland Security can and should play a 
central role in that effort.
---------------------------------------------------------------------------
    \5\ ``Study: U.S. Costal Communities Face More Than $400 Billion in 
Seawall Costs by 2040,'' Institute for Governance & Sustainable 
Development, June 20, 2019, https://www.igsd.org/study-u-s-costal-
communities-face-more-than-400-billion-in-seawall-costs-by-2040/.
---------------------------------------------------------------------------
dhs work on climate change preparedness during the obama administration
    In 2009, President Obama issued an Executive Order requiring 
Federal agencies to develop adaptation plans.\6\ As senior counselor to 
DHS Secretary Janet Napolitano, I was responsible for developing DHS's 
first-ever adaptation plan. To embark on this important effort, I 
assembled a task force from across DHS's almost 2 dozen agencies 
tasking them with answering a basic question, ``Should the Department 
of Homeland Security in 2009, with all of its other responsibilities, 
care about the impacts of climate change?
---------------------------------------------------------------------------
    \6\ E.O. 13514, Federal Leadership in Environmental, Energy, and 
Economic Performance, signed on October 5, 2009.
---------------------------------------------------------------------------
    During a multi-month effort, the task force met with dozens of 
scientists, planners, and security experts, including those from the 
Department of Defense, NOAA, and NASA. As our work progressed, task 
force members realized that climate change would have profound effects 
on virtually all the systems humans have come to rely upon, both 
natural and human-built. As we learned about the projected hurricanes, 
wildfires, and droughts that could pummel America in the near future, 
causing catastrophic, permanent harm, the task force had its answer: 
DHS should care deeply about climate change.
    To satisfy President Obama's order, DHS published the DHS Climate 
Change Adaptation Roadmap in 2012.\7\ The Roadmap states that climate 
change ``must be accounted for in Departmental policy, strategy, plans, 
business processes, programs, institutional practices, and operations 
in order to best position the Department for success over the long term 
. . . Understanding how major strategic drivers such as climate change 
may evolve is at the crux of effectively and decisively managing risks 
to the Nation's security.'' It warned that climate change could 
directly and indirectly impact core homeland security missions and 
identified 4 strategic objectives:
---------------------------------------------------------------------------
    \7\ Climate Change Adaptation Roadmap (Washington, DC: U.S. 
Department of Homeland Security, 2012), https://www.dhs.gov/sites/
default/files/publications/Appendix%20A%20DHS%- 
20FY2012%20Climate%20Change%20Adaptation%20Plan_0.pdf.
---------------------------------------------------------------------------
    1. Manage climate risks for cross-cutting or other key homeland 
        security issues.
    2. Protect and ensure the resilience of critical infrastructure and 
        key resources to potential impacts of climate change.
    3. Ensure the Nation's resilience to more frequent or extreme 
        weather events and natural disasters.
    4. Contribute to safety, stability, security, and environmental 
        protection in the Arctic.
    In 2013, President Obama issued additional guidance regarding 
climate change, prompting DHS to create its Climate Action Plan.\8\ The 
Plan again warned that climate change would impact DHS's missions. For 
example, with regard to preventing terrorism, the Plan foretold that 
more extreme weather could provide opportunities for militant groups to 
extend influence when foreign governments lacked the ability to provide 
aid. The Plan predicted increased pressures on our borders from 
climate-induced migration, including migrants from Central America. It 
apprised that climate change could curtail DHS's ability to safeguard 
lawful trade and travel as well as impede the Department's efforts to 
stop smuggling and trafficking. It also recognized that higher 
temperatures and more intense storms could damage and disrupt 
``telecommunications and power systems, creating challenges for 
telecommunications infrastructure, emergency communications, and 
cybersecurity.'' The Plan forecast that climate change could challenge 
continuity of operations, delivery of emergency services, and response 
capabilities.
---------------------------------------------------------------------------
    \8\ DHS Climate Action Plan (Washington, DC: U.S. Department of 
Homeland Security, 2013), https://www.dhs.gov/sites/default/files/
publications/DHS%20Climate%20Action%20Plan.pdf.
---------------------------------------------------------------------------
    Under the Trump administration, the Department slowed its climate-
related activities to a trickle at best. It omitted the words ``climate 
change'' from its core documents, including FEMA's 2018-2022 Strategic 
Plan and the 2019 National Preparedness Report.\9\ Unfortunately, the 
change in policy did not mean that climate change impacts lessened. The 
lull in planning activities has come at a cost. DHS will need to act 
with alacrity to fulfill its mission of protecting the Nation from the 
harmful effects of rising temperatures.
---------------------------------------------------------------------------
    \9\ Alice Hill, ``What will it take for FEMA to take climate change 
seriously?,'' the Hill, August 21, 2020, https://thehill.com/opinion/
energy-environment/513012-what-will-it-take-for-fema-to-take-climate-
change-seriously.
---------------------------------------------------------------------------
    In the close to a decade since DHS first embarked on adaptation 
planning, many of the events that the Department predicted have come to 
pass. Time after time, the Department and the Nation have struggled to 
handle climate-fueled extremes, be it a record-breaking hurricane 
season in the Atlantic, wildfires in the west, temperature extremes in 
the south, or melting permafrost in the Arctic. As the climate changes, 
bringing new, unprecedented weather and sea-level rise, DHS has an 
important role to play in ensuring that not only that it can fulfill 
its missions effectively under the new conditions, but also that it can 
assist its partners in State, local, and Tribal governments, as well as 
the private sector, to prepare and respond.
    Both the Roadmap and the Plan created under the Obama 
administration should serve as guiding documents for DHS's continued 
planning. Since many of the recommendations have still not been 
implemented, these strategic documents provide solid ground for DHS to 
recommence its climate preparedness efforts.
    dhs as part of the national effort to prepare for climate change
    DHS has an essential part to perform when it comes to climate 
change. Perhaps of all the Federal agencies, it has the deepest reach 
and most consistent contact with State, local, and Tribal governments, 
other Federal agencies, as well as the private sector. It operates in 
every State and territory and is frequently asked to help people after 
disasters have driven them from their homes and caused physical harm. 
Its responsibilities for protecting our borders, coastal areas and 
inland waterways, critical infrastructure, and emergency response make 
it a very big cog in the wheel of climate preparedness. But, as the 
Government Accountability Office (GAO) has repeatedly stressed, the 
Federal Government will need ``a cohesive, strategic approach with 
strong leadership and the authority to manage risks across the entire 
range of related Federal activities.''\10\ The GAO has correctly noted 
that a Government-wide strategy would allow for a more comprehensive 
approach, including the ability to prioritize investments that address 
the country's highest climate risks.
---------------------------------------------------------------------------
    \10\ J. Alfredo Gomez, ``Limiting the Federal Government's Fiscal 
Exposure by Better Managing Climate Change Risks,'' Government 
Accountability Office, https://www.gao.gov/highrisk/limiting-Federal-
governments-fiscal-exposure-better-managing-climate-change-risks.
---------------------------------------------------------------------------
    The failure to develop a National adaptation plan has made the 
United States an outlier among developed nations. The Netherlands, one 
of the most climate-prepared nations in the world, has had a national 
adaptation plan since 2007. China has had a national plan since 2013 
and Russia since 2019. Canada is in the process of drafting its 
plan.\11\ Without such an approach, individual agency efforts risk 
falling short of meeting the mark to effectively reduce the Nation's 
climate risk.
---------------------------------------------------------------------------
    \11\ Chris Field and Alice Hill, ``Climate adaptation: The gaping 
hole in American environmental policy,'' the Hill, April 15, 2021, 
https://thehill.com/opinion/energy-environment/548527-climate-
adaptation-the-gaping-hole-in-american-environmental.
---------------------------------------------------------------------------
    DHS should therefore work with the White House and other agencies 
to develop the Nation's first climate adaptation plan. In the absence 
of a National strategy, DHS efforts may include gaping holes that leave 
the Nation even more vulnerable to climate change, for example, by 
failing to prioritize investments to help people relocate to safer 
areas.
    Even in the absence of a National adaptation plan, however, there 
is much that the Department can do to improve its climate risk 
reduction efforts. These include improving risk communication, 
prioritizing risk reduction, planning for climate-driven displacement 
and migration, improving emergency response for concurrent and 
consecutive disasters, closing the environmental justice gap, and 
preparing for changes in the Arctic.
                       improve risk communication
    DHS already creates the Nation's flood maps, but if a homeowner, a 
business owner, or a Government planner wants to identify future 
climate risks that could affect them in significant ways, there is no 
single place offered by the Federal Government to obtain that 
information. The United States lacks comprehensive risk-mapping that is 
sufficiently down-scaled to inform Americans regarding future climate 
risk. Without such information, developers and city planners continue 
to oversee new development in areas that are at great risk of future 
damage from climate impacts. Families rent and buy homes destined to 
burn. The Federal Government should compile risk information in an easy 
to understand, interactive, visual format that allows people to 
determine projected risks for their homes and/or places of business. 
DHS, in conjunction with the science agencies, should undertake 
responsibility for that work. Better, more easily available risk 
information could drive more-informed decision making across the 
Nation. That information could then inform outreach and planning 
efforts by the Department.
    In addition to providing improved, downscaled risk information, DHS 
should deploy its capabilities to assist the Federal Government writ 
large as well as State, local, and Tribal governments, in addition to 
the private sector, to plan for climate risk. Three areas hold 
particular promise.
  <bullet> Development of common climate risk scenarios.--The Federal 
        Government has yet to establish a set of climate scenarios with 
        which it conducts planning. DHS should, in conjunction with the 
        Federal science agencies, develop climate change scenarios for 
        use across the Government and in planning with State, local, 
        and Tribal governments, and the private sector. Use of common 
        scenarios will help increase awareness and understanding of the 
        risks and the range of possible mitigation solutions.
  <bullet> Development of planning exercises.--DHS should develop 
        planning exercises, including table-top exercises, based on the 
        scenarios to help the Federal Government, communities, and 
        regions understand and plan for their climate risks. To the 
        extent possible, these exercises should include advanced model 
        projections that reflect downscaled impacts. At the conclusion 
        of each exercise, DHS should help coordinate outreach with 
        other Federal agencies to assist participants in accessing 
        Federal programs to close identified gaps. During the Obama 
        administration, FEMA's exercise division developed a pilot 
        project offering exercises based on scenarios to several 
        communities to assist their planning efforts. Norfolk, 
        Virginia, credits the pilot offered in that region with 
        contributing to its robust climate planning efforts.
  <bullet> Conduct Federal Government-wide exercises.--DHS should offer 
        Federal Government-wide exercises on climate change based on 
        the scenarios. These exercises would serve as an educational 
        tool, base-line setting mechanism, avenue for identifying gaps, 
        and opportunity to build relationships across agencies. DHS 
        should collaborate with other Federal agencies to identify 
        programs that would proactively address any vulnerabilities 
        identified in the exercise.
                       prioritize risk reduction
    The Federal Government currently funds large portions of disaster 
recovery. Many decisions that affect the amount of damage disasters 
cause, namely land use and building practices, rest almost entirely in 
the hands of State and local governments. This means that local 
decision makers can choose to build and develop in risky ways knowing 
that the Federal Government will likely foot the recovery bill. DHS 
should explore ways to improve State and local land use and building 
choices with a focus on reducing risks. In other words, it should 
develop policies to decrease the moral hazard created by Federal 
disaster practices.
Promote Stronger Building Codes
    Research from the National Institute of Building Science has 
determined that every $1 spent complying with disaster-resistant 
building codes can avert $11 in damages.\12\ FEMA estimates that adding 
features to protect against natural disasters adds little to the cost 
of construction--an average of 1 to 2 percent of the total cost of 
building.\13\ Despite the risk-reduction benefits of stronger building 
codes, 65 percent of cities and towns have failed to adopt modern 
disaster-resistant codes. Moreover, even if these jurisdictions have 
adopted the most recent model codes, those codes may not reflect the 
future risk of climate change.
---------------------------------------------------------------------------
    \12\ ``National Institute of Building Sciences Issues Interim 
Report on the Value of Mitigation,'' National Institute of Building 
Sciences, January 8, 2019, https://www.nibs.org/news/national-
institute-building-sciences-issues-interim-report-value-mitigation.
    \13\ Protecting Communities and Saving Money: The Case for Adopting 
Building Codes (Washington, DC: FEMA, 2020), https://www.fema.gov/
sites/default/files/2020-11/fema_building-codes-save_brochure.pdf.
---------------------------------------------------------------------------
    DHS should work with the model building code organizations to 
inform development of model building codes that account for future 
climate risk. While the model code organizations work to develop new 
codes, the Department should work, in collaboration with the National 
Institute of Standards and Technology (NIST), to develop Federal risk 
management standards for damaging climate risks, including wildfire and 
heat, for any construction that uses Federal taxpayer funding. The 
Department's prior role in developing the Federal Flood Risk Management 
Standard should inform this process. Creation and adoption of such 
standards for climate-worsened hazards could lead to substantial 
savings for the Federal Government in averted damage and lives saved.
Focus on Critical Infrastructure
    Climate change impacts can cause cascading failures of 
infrastructure that lead to physical and financial harm. As the 
February cold spell in Texas, rolling black-outs in California, and 
extended outages in the wake of storms show, once power is lost, other 
critical infrastructure systems also tend to fail--from transportation 
to communications to public health. Failures of interconnected 
infrastructure can quickly turn cataclysmic. These events can prove 
particularly damaging given the poor state of the Nation's 
infrastructure, which according to the American Society of Civil 
Engineer's 2021 report card only deserves a C-.\14\
---------------------------------------------------------------------------
    \14\ ``2021 Report Card for America's Infrastructure,'' American 
Society of Civil Engineers, March 3, 2021, https://
infrastructurereportcard.org/.
---------------------------------------------------------------------------
    Through its National Risk Management Center (NRMC), DHS should 
amplify efforts to assist vital infrastructure owners and operators in 
understanding their climate risk and what they can do to reduce that 
risk. Modelling of critical failure points for interconnected 
infrastructure could inform climate scenarios and exercises offered by 
DHS. DHS should also expand its Regional Resiliency Assessment Program 
to include a strong focus on climate threats. The Department should 
recruit and train Protective Security Advisors to provide expert 
climate risk advice and support State, local, and private-sector owners 
and operators of critical infrastructure with preparing for escalating 
threats.
Improve Cost-Benefit Analysis
    DHS should work with the Office of Management and Budget to adjust 
the cost-benefit analysis of projects. Existing cost-benefit analysis 
may not accurately account for the benefits of resilience measures that 
will protect against climate impacts in the future nor may it consider 
that some communities lack the economic wherewithal to meet traditional 
cost-benefit analysis.\15\ Adjusting the cost-benefit analysis would 
lower the hurdle for investments in added resilience.
---------------------------------------------------------------------------
    \15\ David Espinoza, Jeremy Morris, and Alice Hill, ``Time is not 
Money, Risk is! A step toward a sustainable and equitable financial 
analysis practice,'' The Solutions Journal, December 1, 2020, https://
www.thesolutionsjournal.com/2020/12/01/time-is-not-money-risk-is-a-
step-towards-a-sustainable-and-equitable-financial-analysis-practice/.
---------------------------------------------------------------------------
Address Land-Use Choices
    One of the hardest issues facing the Nation with regard to climate 
impacts is that as a result of rising temperatures some land may become 
uninhabitable. To the extent the Department's programs provide support 
for new development in at-risk areas, it may be inadvertently exposing 
people and property to greater harm. DHS should determine how it can 
improve local land-use decisions through incentives or withdrawal of 
Federal investment. For example, the Department should consider whether 
it should condition grant funding on more ambitious efforts to reduce 
development in areas vulnerable to climate impacts.
           plan for climate-driven displacement and migration
    Increased migration, both within the United States and globally, 
will affect homeland security. According to a report from the Internal 
Displacement Monitoring Centre, the number of new people forced to move 
within their own countries by climate disasters--like storms and 
floods--rose to the highest in at least a decade in 2020, even in the 
midst of a pandemic. Extreme weather events caused over 30 million 
people, equal to 75 percent of those uprooted within their borders, to 
migrate domestically.\16\ Displacements can occur as a result of slow-
moving events like droughts that desiccate crops or acute events like 
floods and wildfires. Every year, Americans are also displaced from 
their homes by climate-worsened events like the flooding that resulted 
from extreme precipitation in Houston in 2017 or the wildfires in 
California that same year. DHS needs to prepare for those that will 
migrate to our borders as well as for those displaced inside our 
borders.
---------------------------------------------------------------------------
    \16\ Vicente Anzellin et al., Global Report on Internal 
Displacement (Geneva: Internal Displacement Monitoring Centre, 2020) 
https://www.internal-displacement.org/global-report/grid- 2020/.
---------------------------------------------------------------------------
    The crush of Central American migrants at our Southern Border has 
provided a vivid illustration of the challenge that migration poses. 
When I served as senior counselor to the Secretary at DHS, I oversaw 
the first surge of migrant children from Central America's Northern 
Triangle, the countries of Guatemala, Honduras, and El Salvador. In 
2009, DHS apprehended approximately 20,000 children at our Southern 
Border. More than 80 percent were Mexican. But over the next 2 years, 
the number of children encountered at the border grew dramatically, and 
the number of children from the Northern Triangle surpassed the number 
from Mexico. Sixteen thousand child migrants from the Northern Triangle 
were apprehended in 2011, 25,000 in 2012, 38,000 in 2013, and 70,000 in 
2014. In 2019, 85 percent of the nearly 70,000 children at the border 
came from the Northern Triangle. The influx has strained the Federal 
Government beyond capacity. The number of unattended children arriving 
at the southern U.S. border surged to a record high this spring amid 
the on-going immigration crisis. In March 2021, Homeland Security 
Secretary Alejandro Mayorkas announced that the United States was ``on 
pace to encounter more individuals on the Southwest Border than we have 
in the last 20 years,'' and in April, the number of detentions at the 
border reached the highest level in over 2 decades. The DHS Office of 
Inspector General (OIG) recently concluded that, in light of past large 
influxes of migrants, if the Department ``does not develop a DHS-wide 
framework for surges and address day-to-day fragmentation, [it] will 
face the same challenges in future surges.''\17\
---------------------------------------------------------------------------
    \17\ Office of Inspector General, DHS' Fragmented Approach to 
Immigration Enforcement and Poor Planning Resulted in Extended Migrant 
Detention During the 2019 Surge (Washington, DC: U.S. Department of 
Homeland Security, 2021), https://www.oig.dhs.gov/sites/default/files/
assets/2021-03/OIG-21-29-Mar21.pdf.
---------------------------------------------------------------------------
    The reasons these children travel to the United States are many, 
but among them are climate change. Northern Triangle countries are 
highly vulnerable to climate-worsened events, including greater 
temperature extremes, altered rain patterns, droughts, and bigger 
storms. The region depends on agriculture and in particular, coffee 
cultivation, which is susceptible to damage from drought, heavy 
rainfall, and higher temperatures. In 2020, 2 back-to-back Category 4 
hurricanes further battered the region, leaving many people homeless 
and robbing them of their livelihoods.
    DHS should, as identified in its Obama-era climate adaptation 
plans, ``Coordinate a Departmental review of the effects of climate 
change on mass migration.'' That review should examine how climate 
affects migration and displacement. In addition, DHS should address the 
OIG recommendations aimed at ending DHS's fragmented approach to 
migration and improving planning.
    To fulfill its mission, DHS also needs to understand how changing 
conditions could affect transnational crime, including terrorism. 
During extreme events, organized crime and extremists have been known 
to take advantage of a failed government response to expand their 
territory and increase recruitment. The pandemic has shown us how this 
can work. Drug cartels in Mexico provided essential supplies to 
populations struggling with the spread of the coronavirus, making daily 
home deliveries to disadvantaged areas. The head of the Cartel of the 
South was quoted saying, ``If we protect [local populations], they'll 
protect us as well.''\18\
---------------------------------------------------------------------------
    \18\ Falko Ernst, ``Mexican criminal groups see Covid-19 crisis as 
opportunity to gain more power,'' the Guardian, April 20, 2020, https:/
/www.theguardian.com/world/2020/apr/20/mexico-criminal-groups-covid-19-
crisis-opportunity-gain-power.
---------------------------------------------------------------------------
    DHS should also focus on developing frameworks to assist local, 
State, and Tribal governments cope with internally displaced Americans. 
The Government Accountability Office (GAO) conducted a review of 
Federal efforts that provide support to communities displaced by 
climate change and concluded that little support exists.\19\ This means 
that when displacements occur, they risk becoming chaotic. That is what 
occurred in the wake of the 2018 Camp Fire that killed over 80 people 
and obliterated almost 14,000 residences. As a result of the fire, 
16,000 people moved virtually overnight to nearby locations. The city 
of Chico, which had a population of 110,000, added 19,000 people, 
straining the city's ability to absorb the influx. To help local 
communities avoid negative repercussions like increased real estate 
prices, over-crowded schools, and unplanned urbanization, DHS, in 
coordination with other agencies, should assist the Nation by 
identifying areas for future relocation and help those receiving 
communities to prepare. DHS should develop modelling capabilities to 
help communities understand where displacements may occur and assist 
interested communities to determine how they can plan better.
---------------------------------------------------------------------------
    \19\ J. Alfredo Gomez et al., A Climate Migration Pilot Program 
Could Enhance the Nation's Resilience and Reduce Federal Fiscal 
Exposure (Washington, DC: Government Accountability Office, 2020), 
https://www.gao.gov/assets/gao-20-488.pdf.
---------------------------------------------------------------------------
improve emergency preparedness for concurrent and consecutive disasters
    DHS should plan for and acquire the capabilities to respond with 
ever-greater frequency to disasters worsened by climate change. With 
climate change, disasters may occur in multiple locations concurrently 
or close-in-time. DHS needs to make sure that it has the capabilities 
to respond. That means ensuring it has adequate personnel and resources 
to effectively manage consecutive and successive extremes. DHS should 
evaluate its emergency capabilities in light of increased disaster 
frequency with particular attention to surge capacity, the ability to 
respond to multiple locations simultaneously, and the delivery of 
mental health services in the immediate wake of a disaster. It should 
improve its modelling of complex events to inform its staffing, 
response, and resource needs. It should also conduct research on the 
efficacy of early warning systems and promote Nation-wide best 
practices to drive the Nation to an easy-to-understand uniform system. 
Variations in warning systems can lead to unnecessary confusion and 
cause people to fail to heed messages to take shelter.
                  close the environmental justice gap
    DHS should continue to close the environmental justice gap, 
including bolstering efforts to evaluate the benefits of investments in 
light of their impacts on people rather than solely economic return. It 
should expand work to consider and address the disproportionate impact 
of climate-fueled disasters on disadvantaged communities, people with 
disabilities, older people, and children.
    The Department should review disaster aid programs with the goal of 
removing barriers to access for low-income and disadvantaged 
communities. The application requirements of FEMA's competitive grant 
programs can impose barriers to some communities who lack the planning 
resources, staff, and expertise to navigate the process. FEMA records 
reveal that that the new Building Resilient Infrastructure and 
Communities (BRIC) program has failed to attract applications from many 
poor communities with fewer than 3,000 residents even though the 
program will cover 90 percent of the project costs for those 
communities.\20\ For some communities, the BRIC cost share of 10 
percent may prove too high a hurdle.
---------------------------------------------------------------------------
    \20\ Thomas Frank, ``FEMA climate grants pose challenge for poor 
communities,'' E&E News, June 1, 2021, https://www.eenews.net/stories/
1063733777.
---------------------------------------------------------------------------
                   prepare for changes in the arctic
    Last, DHS should continue to prepare for changes in the Arctic as 
eco-tourism, damage to infrastructure from melting permafrost, resource 
competition, and global security tensions escalate with the opening of 
the Arctic Ocean for navigation.
                               conclusion
    With its enormous responsibilities, reach across all sectors of 
society, and deep capabilities, DHS should play a pivotal role in 
improving the Nation's preparedness for climate risk. The Department, 
of course, should start by making sure that it can continue to fulfill 
its missions in the face of changing conditions. But it needs to move 
quickly beyond looking inward to find ways to lend significant 
assistance to State, local, and Tribal governments, as well as the 
private sector, to understand, prepare for, and respond to climate 
risk. Fortunately, the Obama administration has given the agency a 
strong head start.
    The risks, however, are mounting. There is no time to waste. For 
DHS to keep the United States safe, it needs to adopt and implement a 
robust strategy for tackling climate change.
    Thank you for the opportunity to speak with you today. I look 
forward to answering any questions you may have.

    Mrs. Demings. At this time, I would like to recognize Mr. 
Curtis Brown to summarize his statement for 5 minutes.

 STATEMENT OF CURTIS BROWN, STATE COORDINATOR AND CO-FOUNDER, 
 VIRGINIA DEPARTMENT OF EMERGENCY MANAGEMENT, COMMONWEALTH OF 
  VIRGINIA, ON BEHALF OF THE VIRGINIA DEPARTMENT OF EMERGENCY 
    MANAGEMENT AND INSTITUTE FOR DIVERSITY AND INCLUSION IN 
                      EMERGENCY MANAGEMENT

    Mr. Brown. Good afternoon, Chairwoman Demings, Ranking 
Member Cammack, and Members of the subcommittee. My name is 
Curtis Brown. I serve as State coordinator of emergency 
management in the Commonwealth of Virginia. I am also co-
founder of the Institute for Diversity and Inclusion in 
Emergency Management.
    I appreciate the opportunity to discuss the rising threat 
of climate change to the homeland from the perspective of an 
emergency manager, with a keen focus on the disproportionate 
impact of disasters on marginalized and frontline communities.
    Emergency managers all over the country have witnessed 
first-hand the consequences of climate change. We are 
responsible for working with communities to prepare for, 
mitigate against, respond to, and recover from disasters. The 
last decade has demonstrated the reality of the challenges we 
face with climate change. More frequent and devastating 
disasters that have stretched our limited resources and 
disproportionately impacted marginalized communities.
    In addition to coordinating the response to COVID-19 over 
the last year, emergency managers and communities were faced 
with major wildfires out West, a historically busy Atlantic 
hurricane season, heat waves, and more frequent flooding events 
across the country. These frequent disasters, both big and 
small, negatively impact marginalized individuals and 
communities in numerous ways.
    Research and data confirms that people of color, people 
with disabilities, women, low-income individuals in communities 
suffer greater disaster losses. This is demonstrated in higher 
risks of death, injury, physical and mental, economic loss and 
poverty, abuse, and other lasting impacts.
    Systemic and structural racism, environmental injustices, 
and other inequitable and discriminatory policies and programs 
are the root cause for creating and enhancing the vulnerability 
faced by at-risk and marginalized individuals and communities.
    The threat of climate change requires bold action from the 
Federal Government, leadership, resources to support emergency 
managers and ensure that we prioritize those most at risk. That 
is why I commend President Biden for recently announcing the 
dedication of $1 billion for the Pre-Disaster Mitigation 
Program, with the bulk portions specifically focused on 
supporting marginalized communities.
    Executive Orders focus on advancing racial equity and 
supporting underserved communities and tackling climate change 
through a comprehensive whole-of-Government strategy is the 
support State and locals need. All levels of Government sectors 
have responsibilities to respond to the threat of climate 
change and support at-risk communities.
    In Virginia, Governor Northam's administration has taken 
significant steps to address the challenge of climate change 
and further equity. We have initiated comprehensive adaptation 
planning efforts, ensured cross-agency and -sector 
collaboration, and prioritized marginalized communities.
    Last year, Virginia was 1 of 5 States to submit over $200 
million in projects for the 2020 BRIC Pre-Disaster Mitigation 
Grant Program. Forty percent of our grant projects submitted 
were from local governments with the highest vulnerability in 
high-risk populations according to an equity analysis we 
conducted. We look forward to furthering our equitable 
mitigation efforts here in 2021 with the additional BRIC 
funding.
    I appreciate FEMA Administrator Criswell's leadership in 
prioritizing diversity and equity inclusion and responding to 
the climate crisis that will go a long way with furthering 
FEMA's efforts and also support the entire emergency management 
enterprise. A recently-released Request for Information from 
FEMA is intended to solicit input on how to integrate equity 
from FEMA within FEMA programs and regulations and policies.
    These are all welcome steps that will hopefully further 
disaster equity, but integrating equity in emergency management 
will not be easy or a quick fix. It requires a long-term 
sustainable commitment, resources, and a willingness to support 
innovation to solve complex and deeply-rooted inequities in 
programs and policies.
    Emergency managers need to be trained on how to integrate 
equity. Disaster equity leaders should be leveraged. We will 
need to empower marginalized communities and front-line 
organizations and support and--and add support and support 
efforts to increase diversity within the emergency management 
profession.
    Simply put, doing things the same way will result in the 
same inequities we have seen as disasters increase. By taking 
these courageous steps and others, we will be better prepared 
to meet one of the greatest challenges of the 2lst Century.
    Thank you, Chairwoman Demings, and I look forward to 
offering recommendations and answering questions from the 
subcommittee.
    [The prepared statement of Mr. Brown follows:]
                   Prepared Statement of Curtis Brown
                         Tuesday, June 8, 2021
    Good afternoon Committee Chairman Thompson, Committee Ranking 
Member Katko, Subcommittee Chairwoman Demings, Subcommittee Ranking 
Member Cammack, and Members of the subcommittee. My name is Curtis 
Brown, and I serve in Governor Ralph Northam's administration as State 
coordinator of emergency management at the Virginia Department of 
Emergency (VDEM). Additionally, I am the co-founder of the Institute 
for Diversity and Inclusion in Emergency Management (I-DIEM). I-DIEM's 
mission is to serve as a resource and an advocate for the value of 
diversity and inclusion in emergency management (EM). I-DIEM serves as 
the conduit for research on diversity and inclusion (D&I), social 
equity, and the practical application of equitable EM practices to 
improve outcomes and build resilience.
    It is pleasure to provide testimony before the subcommittee. As a 
former professional staff member working on Chairman Thompson's staff, 
I understand the critical oversight role of the House Committee on 
Homeland Security. It was truly one of the highlights of my career to 
staff this subcommittee and support the Legislative branch's important 
responsibility of influencing a range of emergency management and 
homeland security issues to support the American people. The 
perspective gained in that role has been useful in serving within a 
State emergency management agency.
    The decision to hold today's hearing is an acknowledgment of the 
serious need to focus attention on the threat of climate change on the 
homeland, in particular on our most vulnerable communities. The Biden 
administration, Congress, Department of Homeland Security, Federal 
Emergency Management Agency (FEMA), State, local, non-profit, and 
private-sector partners must all work together to respond to this 
threat. Thank you for your service and all the efforts of the 
Congressional staffers who do the hard work in the background.
    I appreciate the opportunity to participate in this panel to 
provide the perspective of an emergency manager and as an advocate for 
disaster equity. Emergency managers must deal with the consequences of 
climate change. Across the country, emergency managers are responsible 
for preparing communities for, mitigating against, responding to, and 
recovery from disasters. These critical responsibilities help to save 
lives and reduce the negative short- and long-term impacts on people 
and communities. The repeated impacts of climate change on the homeland 
require additional emergency management resources, especially at the 
State and local levels. This includes, but is not limited to increased 
numbers of personnel, enhanced capabilities, funding to support 
mitigation and adaptation, and the prioritization of marginalized 
communities that are most at risk of climate change impacts.
               climate change and global warming impacts
    Climate change is real and its impacts are being experienced 
annually. As the Intergovernmental Panel on Climate Change states, 
``Scientific evidence for warming of the climate system in 
unequivocal.'' Additionally, scientific research and data confirms that 
the cause of warming trends is related to human activity. This 
scientific data affirms the need for courageous efforts from across the 
globe to address the climate crisis. It is possibly the most pressing 
issue for the rest of the 21st Century and the impacts are being 
experienced now.
    Climate change has resulted in more frequent and impactful 
disasters including droughts, wildfires, hurricanes, and flooding 
events. The last several years have been non-stop with multiple, and in 
some cases, simultaneous disasters. The attention over the last year 
was rightfully focused on the on-going response to the unprecedented 
deadly impacts of COVID-19. 2020 also represented a historic year for 
extreme weather events. Wildfires ravaged communities in California, 
hurricanes battered the Gulf and Southeast, flooding events are 
becoming more frequent and deadly disaster has continued to rise. 
According to the Fourth National Climate Assessment, U.S. coastal 
flooding has doubled in the last few decades.
    In Virginia, we have seen a significant increase of events 
requiring the issuance of State of Emergency Declarations. State and 
local government public safety officials work closely with impacted 
communities. For major events, impacting larger regions or multiple 
States, full engagement of the emergency management enterprise (FEMA, 
State, local, non-profit, and private) is required. The National 
Oceanic and Atmospheric Administration (NOAA) reports that the 2020 
hurricane season experienced 29 named storms in the Atlantic season 
breaking the record for the highest number of tropical/subtropical 
storms in a single year. This year, 2021, is also anticipated to be an 
above-normal season with a likely range of 13 to 20 named storms, of 
which 6 to 10 could become hurricanes. The increase in extreme weather 
and natural disasters has a profound impact that threatens public 
health and safety, natural resources, and our communities. It also 
affects the economic well-being of the Commonwealth, including the 
port, military installations, and critical infrastructure. It is clear 
the impacts of climate change have stretched already limited resources 
within State and local emergency management agencies. Last year, 22 
extreme weather events resulted in losses of over $1 billion each.
     the need for equity: disproportionate impacts on marginalized 
                              communities
    Climate change impacts are being experienced across the country, 
but are disproportionately felt by marginalized communities. Numerous 
natural disasters have indiscriminately impacted large swaths of the 
United States over the last decade. Communities of color and other 
underserved or underrepresented populations are disproportionately 
impacted by extreme weather and other emergencies due to inadequate 
infrastructure, limited financial resources, and poor environmental 
conditions. The factors contributing to increased vulnerabilities 
within communities of color during disasters have been caused by 
decades of institutional racism, divestment, environmental injustices, 
and other discriminatory policies that contribute to widening 
inequities.
    Marginalized communities suffer greater loss of life, physical 
injuries, economic loss, and mental health after disasters. Disaster 
planning efforts fail to fully consider our most vulnerable populations 
such as communities of color, women, low-income individuals, people 
with access and functional needs, and other underserved individuals. A 
review of past and present inequities helps explain the myriad issues 
underlying these negative outcomes. Historical and existing 
exclusionary and discriminatory practices increase the risks and 
impacts of disasters on specific individuals and communities which 
heightens vulnerability. Disasters act as ``shocks'' to communities, 
amplifying and exacerbating the existing inequities experienced by 
those lacking resources.
    Several studies have highlighted inequities in disaster impacts 
related to heat waves, hurricanes, flooding, and other extreme weather 
events. The disaster inequities are not solely due to weather itself 
but the systems, policies, and programs are also inequitable. FEMA, 
other Federal agencies, and policy makers need to intentionally and 
dramatically change policies and programs to prioritize those most 
vulnerable and ensure equity is a primary performance measure. By doing 
so, we can begin to equitably support communities that are on the front 
line of climate change threat. The Fourth National Climate Assessment 
echoed the need to prioritize marginalized communities and promote 
equitable mitigation and adaptation practices.
    ``Prioritizing adaptation actions for populations that face higher 
risks from climate change, including low-income and marginalized 
communities, may prove more equitable and lead, for instance, to 
improved infrastructure in their communities and increased focus on 
efforts to promote community resilience that can improve their capacity 
to prepare for, respond to, and recover from disasters.'' (Fourth 
National Climate Assessment, Volume II Impacts, Risks, and Adaptation 
in the United States, Page 55).
   virginia efforts to address climate change and integrating equity
    Governor Northam's administration and the Commonwealth of Virginia 
have taken significant steps to address the challenge of climate 
change. Utilizing a ``whole-of-Government approach,'' Virginia has 
taken bold actions to support our communities, to ensure a continued 
thriving economy, and to protect critical infrastructure. Virginia is 
leading the way in combating this rapidly-evolving threat. The 
secretary of natural resources advises the Governor on natural 
resources issues and works to advance top environmental priorities. The 
Commonwealth also has a special advisor to the Governor for coastal 
adaptation and protection. This role addresses the effects of sea-level 
rise and land subsidence along Virginia's coast, and spans across 
numerous Commonwealth agencies to ensure a consistent and streamlined 
effort. Virginia continues to introduce policies focused on slowing 
climate change and its impacts, mitigation, and adaptation.
    An innovative, science-based approach uses cost-effective, nature-
based, and equitable strategies to protect our people, communities, 
infrastructure, and economy. The guidelines and planning of one of the 
most groundbreaking, comprehensive actions to champion coastal 
resilience are enshrined in:
  <bullet> Executive Order 24: Also known as the Master Planning 
        Framework (Framework), the Framework was initiated to lead the 
        Commonwealth in making the coast more resilient to the impacts 
        of climate change and sea-level rise. It details the core 
        principles of Virginia's approach to coastal adaptation and 
        protection and calls for implementation of Virginia's first 
        Master Plan by the end of this year 2021.
  <bullet> Executive Order 71: Establishing the Virginia Coastal 
        Resilience Technical Advisory Committee (TAC) which will create 
        and implement a Coastal Resilience Master Plan. TAC has 
        representatives of State agencies, coastal planning districts 
        and regional commissions, and academic advisors, among others 
        who facilitate the coordination and the development of the 
        Master Plan.
  <bullet> Executive Directive 13: Integral in the Virginia Coastal 
        Zone Management (CZM) Program's support of the Coastal 
        Resilience Master Planning Framework, and
  <bullet> The Virginia Coastal Policy Center (VCPC) at William & Mary 
        Law School assists in support of the Framework, working with 
        State offices and agencies. VCPC also works with scientists, 
        local and State political figures, community leaders, the 
        military, and others to integrate the latest science with legal 
        and policy analysis to solve coastal resource management 
        issues. In 2015, Virginia successfully competed and was awarded 
        $120.5 million from the National Disaster Resilience 
        Competition (NDRC) grant through the U.S. Department of Housing 
        and Urban Development awarded to the Virginia Department of 
        Housing and Community Development in 2017. The grant serves to 
        implement innovative solutions to combat sea-level rise in the 
        Hampton Roads area. $5.25 million portion of the grant award 
        established the Nation's first-of-its-kind resilience 
        innovation hub (RISE), a city of Norfolk, VA-based nonprofit 
        incubating resilience-building solutions for coastal 
        communities.
               integrating equity in emergency management
    Due to the disproportionate impact on marginalized communities, 
Virginia is intentionally focused on embedding equity into emergency 
management by taking full advantage of one of FEMA's resilience funding 
opportunities through the Hazard Mitigation Assistance (HMA) Grants 
programs; specifically, the grant program known as Building Resilient 
Infrastructure and Communities (BRIC). Since 2017, Virginia Department 
of Emergency Management (VDEM) has made an intentional effort to 
utilize the HMA funding opportunity to benefit Virginia's most 
vulnerable communities. Purposefully holistic solutions to flooding 
issues have led to larger, more comprehensive projects. In 2020, we 
revised our grant priorities to reduce inequities that were 
unintentionally embedded within the scoring criteria. Fortunately, the 
BRIC priorities as announced by FEMA encompassed many of the key 
priorities on which Virginia had already been focused.
    VDEM partnered with the Virginia Health Equity Leadership Task 
Force to support and empower local governments by performing an equity 
analysis of localities across the Commonwealth. As part of the Hazard 
Mitigation Equity Analysis, a vulnerability score for Virginia 
households was developed and used to identify Virginia's most 
vulnerable populations across the Commonwealth in the event of an 
environmental disaster. Population vulnerability was determined by 
several factors including:
    1. Communities of color
    2. Elevated health risk
    3. Low income
    4. No. of people in the household
    5. No. of children in the household
    6. Lack of English in the primary language
    7. Unemployment risk
    8. Age (older adults)
    9. Mobile homes
    10. Lack of vehicle access.
    The equity analysis encompassed population vulnerability plus 
hazard risk (which accounts for households within a flood or hurricane 
zone) plus past mitigation projects. Upon identifying the top 40 
localities with the highest average of household vulnerability in a 
flood or hurricane zone, VDEM will host 13 subregional hazard 
mitigation workshops focused on equity throughout the summer. The 13 
subregional workshops will provide local governments with an 
opportunity to share their knowledge on flood risk in vulnerable 
communities and further explore how the Commonwealth can provide 
support through technical assistance in scoping relevant projects. Last 
year, Virginia was 1 of 5 States to submit over $200 million in 
projects for the 2020 BRIC Grant Program. Thirteen of the 33 projects 
submitted by Virginia were from localities with the highest 
vulnerability according to the equity analysis. The Commonwealth is 
dedicated to equitably leveraging BRIC and other mitigation funding to 
support our most at-risk communities.
                      biden administration efforts
    President Biden's recent announcement of allocating $1 billion in 
2021 BRIC funding for communities, States, and Tribal governments to 
support pre-disaster mitigation efforts is a great step in the right 
direction. There are numerous Biden administration priorities and 
investments to support climate resilience. As I've presented, the 
threat of climate change to the homeland is significant and stretches 
the limited capabilities and resources of State and local emergency 
management agencies. Support from the Federal Government is needed in 
order to mitigate and adapt to climate change. The Biden 
administration's commitment and focus on equity are the bold steps 
needed to face this threat head-on. FEMA Administrator Criswell has 
prioritized diversity, equity, and inclusion and the agency has 
released a Request for Information to identify ways to integrate 
equity. These are welcomed steps that will hopefully further disaster 
equity. But integrating equity in emergency management will not be a 
quick fix and requires a long-term, sustainable commitment and 
willingness to support innovation to solve complex and deeply-rooted 
inequitable programs. I encourage FEMA to leverage disaster equity 
leaders, empower marginalized communities and front-line organizations, 
and support efforts to diversify the emergency management enterprise to 
mirror the Nation's diverse communities.
                               conclusion
    The threat of climate change presents a great challenge to the 
Nation. Marginalized communities are most at-risk for disaster impacts 
and should be empowered and prioritized in all our efforts. Policy 
makers and emergency officials must be willing to take bold and 
equitable steps to respond to climate change and make investments in 
mitigation and adaptation. Doing so will help us better prepare for the 
years ahead which will continue to test us. For marginalized 
communities, equitable investments will save lives and improve disaster 
outcomes by focusing resources where they are needed most. Thank you 
for this opportunity to discuss these important topics and I look 
forward to answering the Members' questions.

    Mrs. Demings. Thank you so much, Mr. Brown, for your 
testimony.
    At this time, the Chair now recognizes Pamela Williams to 
summarize your statement for 5 minutes.

     STATEMENT OF PAMELA S. WILLIAMS, EXECUTIVE DIRECTOR, 
                     BUILDSTRONG COALITION

    Ms. Williams. Thank you, Chairwoman Demings and Ranking 
Member Cammack and the distinguished Members, of this 
committee.
    It is an honor for me to join you today to discuss cost 
mitigation and how it intersects with climate adaptation and 
homeland security, and this conversation must serve as a core 
component of the National conversation of resilient 
infrastructure in communities.
    The BuildStrong Coalition was actually formed a decade ago 
and is made up of an extremely diverse group dedicated to 
building a more resilient Nation. We represent firefighters, 
emergency responders, emergency managers, insurers, architects, 
contractors, manufacturers, as well as consumer organizations 
and code specialists.
    Like you, the coalition recognizes that the increase in the 
frequency and severity of natural catastrophes in this country 
clearly illustrate the need for investments in the resilience 
of structures, the ones in which we live and work and then, of 
course, the critical lifeline infrastructure that support our 
daily lives.
    In 2018, Congress did take several key steps in recognition 
of the unsustainable impacts of disasters by passing the 
Disaster Recovery Reform Act, or DRRA. The true game changer, 
as we discussed, was the creation of an additional set-aside of 
6 percent in spending for the purpose of funding greater 
investments in mitigation before a disaster occurs.
    FEMA has taken that authority and last year launched the 
BRIC program, and certainly we applaud FEMA for their 
unprecedented efforts in developing and implementing this 
transformational program. But in its inaugural year, FEMA 
offered $500 million through BRIC, but they received almost 
$3.6 billion in requested projects.
    FEMA Administrator Deanne Criswell has stated that one of 
her top priorities is to build a new culture of disaster 
resilience. But we know that the resilience needs in this 
country far exceed the resources available, and new funding 
alone is not going to solve a problem of this magnitude.
    So the friends and alliances of the BuildStrong Coalition 
have developed the following policy recommendations that we 
will share with you.
    First, increase the funding for resilience before the next 
disaster, climate impact, or catastrophic failure. Mitigation 
saves lives, property, and taxpayer money. Mitigation also 
saves the environment, and we know it is the smart use of 
Federal resources and will save taxpayer dollars, anywhere from 
$4 to $11 for every dollar invested. But, again, the resources 
are woefully inadequate.
    Second, we need to create incentives for building stronger 
and tie existing Federal funding streams to the adoption and 
enforcement of strong modern building codes. Disaster resilient 
and sustainable construction and the use of stronger building 
codes has proven to save lives, reduce damage of natural 
disasters, and protect the environment. Adopting building codes 
is the single most effective thing that we can do to save lives 
and property.
    Third, promote the hardening of lifeline infrastructure. 
Lifeline infrastructure provides indispensable services that 
enable continuous operations of critical businesses and 
Government functions and, without the prompt restoration, would 
risk health, safety, and economic security, key elements to 
homeland security.
    We also need to incentivize investments through tax 
benefits. We need to make it easier for individuals, 
businesses, and Government to invest in resiliency. We need to 
ensure the use of resilient American-made products in the 
construction and retrofit of our key lifeline infrastructure.
    Finally, and maybe most importantly, we need to build 
capacity. We must ensure that States, locals, Tribal 
governments, regional entities are given the tools and 
resources that they need to increase capacity and capability to 
even identify risks and hazards and mitigate those risks before 
the next crisis occurs.
    For this country to be successful in enhancing our 
resiliency, we must focus on capacity building at all levels of 
government and then turn to considerations of sustainability, 
adaptability, and creative financial instruments that can be 
leveraged to drive socially responsible investments and 
resilience.
    This is also going to involve simplifying and streamlining 
programs, and this committee is going to need to focus on 
effective grants management and oversight so that we can 
leverage these investments systematically and systemically for 
National resilience.
    As we launch into the 2021 hurricane season, we are very 
excited to join thought leaders like you to identify 
opportunities for policy changes. We must invest in these 
Federal resources so that we ultimately save lives and 
livelihoods.
    Thank you, ma'am.
    [The prepared statement of Ms. Williams follows:]
                Prepared Statement of Pamela S. Williams
                         Tuesday, June 8, 2021
    Chairwoman Demings, Ranking Member Cammack, and distinguished 
Members of the committee, I would like to thank you for holding this 
important hearing today regarding the risks and effects of climate 
change on homeland security, particularly how disasters impact our 
communities, our homes, and lifeline infrastructure.
    I am Pamela Williams, the executive director of the BuildStrong 
Coalition, and it is an honor for me to join the distinguished panel of 
witnesses today to discuss how disaster mitigation intersects with 
climate adaptation and homeland security and must serve as a core 
component of the National conversation on resilient infrastructure and 
communities. Investments in mitigation and resilient construction, 
particularly before the next major storm, not only drives down disaster 
costs and losses, but also builds resilience in our citizens, 
neighborhoods, regions, and across the United States.
                      background and introduction
    My journey began over 20 years ago, aiding the city of Des Moines, 
Iowa in recovery from the devastating 1993 Midwest floods. During my 
career, I have served at the Federal, State, and local levels, dealing 
with disaster policy. I have helped local governments adopt and enforce 
codes and standards as they attempted to rebuild from catastrophe, 
guided States toward prioritizing disaster preparedness and mitigation 
efforts, and worked in the trenches with the Federal Emergency 
Management Agency (FEMA) addressing the consequences of this country's 
most catastrophic disasters. I was honored to serve the House Committee 
on Transportation and Infrastructure for 5 years, particularly as 
Members developed the legislative response to the unprecedented 2017 
disaster season. I have a deep appreciation for the emergency 
management profession, the challenges in driving responsible disaster 
policy, and the tremendous, tireless efforts put forth every day by 
FEMA, all levels of government, and our private-sector partners in 
trying to get to a better answer on disasters.
    Today, it is my privilege to serve as the executive director of the 
BuildStrong Coalition and to testify before you today on its behalf. 
The BuildStrong Coalition, formed in 2011 to respond to an increasing 
number of severe disasters, is made up of a diverse group of members 
representing firefighters, emergency responders, emergency managers, 
insurers, engineers, architects, contractors, and manufacturers, as 
well as consumer organizations, code specialists, and many others 
committed to building a more disaster-resilient Nation. The BuildStrong 
Coalition has been a partner with Congress in its work to investigate 
causes of, and devise the solutions to, the rising cost of disasters in 
the United States. We have been honored to help identify opportunities 
for policy changes that promote mitigation and the smart investment of 
Federal resources to address our country's increasing number of severe 
and costly weather events, including informing several provisions of 
the landmark Disaster Recovery Reform Act of 2018.
    In the face of growing climate risk, we must be focused on what 
legislative changes and policy initiatives are needed to appropriately 
incentivize smart mitigation and resilience activities and practices, 
while also removing the challenges and obstacles that may stand in the 
way or hinder the progress of disaster resilience. We implore the 
committee to use this hearing to shape the resilience conversation 
across this country--in order to create a Resilient America.
    This committee stands poised to increase disaster resilience in the 
United States and ensure that resilience remains at the forefront of 
the infrastructure, COVID-19 recovery, and disaster assistance reform 
conversations. The committee must seize the opportunity to influence 
the overall National resilience strategy and establish the framework 
for the next chapter in increasing disaster resilience in the United 
States. This committee must fill the leadership role in addressing 
climate impacts by incentivizing and providing resources to facilitate 
smart, climate-conscious behaviors and mitigation and removing the 
moral hazards and policy impediments inhibiting decision makers from 
creating resilient systems and communities.
    BuildStrong is excited to join Congressional leaders like you as we 
identify opportunities for policy changes that promote disaster 
resilience and the smart investment of Federal resources to address our 
country's vulnerable homes and communities, aging infrastructure, and 
the increasing number of severe and costly weather events. Together, we 
can help save the lives and property of our citizens.
      drra and bric: transforming disaster recovery and mitigation
    The increase in the frequency and severity of natural catastrophes 
in the United States clearly illustrates the need for our country to 
invest in the resilience of the structures in which we live and work 
and the lifeline infrastructure that supports the essential aspects of 
our everyday lives. According to Munich Re, hurricanes, wildfires, and 
other disasters across the United States caused $95 billion in damage 
last year, the fourth-highest cost on record.\1\ In 2020, North 
Atlantic hurricane season records were broken with 30 named storms 
forming, and 12 making landfall. It was the most active wildfire year 
on record across the west with nearly 10.3 million acres consumed. And 
according to National Oceanic and Atmospheric Administration (NOAA), in 
2020, there were 22 weather and climate disaster events with losses 
exceeding $1 billion each across the United States--shattering the 
previous annual record of 16 events that occurred in 2011 and 2017--
which included tropical cyclones, severe storms, drought, wildfire 
event, and a derecho.\2\
---------------------------------------------------------------------------
    \1\ ``Record hurricane season and major wildfires--The natural 
disaster figures for 2020,'' Munich Re, January 7, 2021. https://
www.munichre.com/en/company/media-relations/media-information-and-
corporate-news/media-information/2021/2020-natural-disasters-
balance.html. Accessed June 4, 2021.
    \2\ Smith, Adam B., ``2020 U.S. billion-dollar weather and climate 
disasters in historical context,'' National Oceanic and Atmospheric 
Administration (NOAA), January 8, 2021. https://www.climate.gov/news-
features/blogs/beyond-data/2020-us-billion-dollar-weather-and-climate-
disasters-historical. Accessed June 4, 2021.
---------------------------------------------------------------------------
    In 2018, Congress took several key steps in recognition of 
unsustainable impacts of disasters by passing the bipartisan Disaster 
Recovery Reform Act of 2018 (DRRA). These changes to disaster law and 
policy support and incentivize States and localities to adopt enhanced 
mitigation measures to protect lives and taxpayer dollars, remove some 
of the moral hazards that increase risk, and transform disaster 
resilience in this country. This legislation provides FEMA, in 
particular, more tools to help impacted communities recover smarter and 
stronger and end the cycle of build, damage, rebuild.
    The true game changer in DRRA is the creation of an additional set-
aside of 6 percent annual disaster spending for the purpose of funding 
greater investment in mitigation before a disaster. This change 
represents a significant increase in reliable funding for grants for 
State, local, Tribal, and territorial governments and communities that 
will enable them to better plan and execute cost-effective risk 
mitigation projects. With the enactment of the DRRA, FEMA was given the 
opportunity and the challenge to create a new, permanent mechanism to 
provide substantial funding for cost-effective, risk-reducing pre-
disaster mitigation projects.
    FEMA took these new and expanded authorities and in 2020 launched 
the Building Resilient Infrastructure and Communities (BRIC) Grant 
Program. We applaud FEMA for their unprecedented efforts in developing 
and implementing this transformational program. FEMA has endeavored to 
be transparent and to engage stakeholders throughout the process. 
Thanks to this leadership, BRIC is now a Nation-wide, pre-disaster 
mitigation grant program that will impact both public infrastructure 
and individual preparedness by increasing residential resilience 
through structural retrofits and smart building techniques.
    In its inaugural year, FEMA offered $500 million through the BRIC 
program. In its first year of funding, during a global pandemic when 
emergency managers were overwhelmed and strapped for resources, FEMA 
received almost $3.6 billion in requested projects. While we look 
forward to the award announcements later this summer, FEMA and the 
administration have already announced a funding increase to $1 billion 
for fiscal year 2021. It will be critical for FEMA to provide the 
official Notice of Funding Availability as soon as possible to give 
States and sub-applicants as much lead time and guidance as possible. 
We will have much to learn from the initial round of BRIC awards, what 
is working and what is not working, what is discouraging communities 
from applying, what aspects of the program ignore issues of equality 
and fairness, and where improvements can be made.
    FEMA Administrator Deanne Criswell has stated that one of her top 
priorities is to build a new culture of disaster resilience. But we 
know that the infrastructure and residential needs of the Nation far 
exceed the resources available. And new funding alone cannot solve a 
problem of this magnitude. Investments must be deployed wisely and in a 
manner that realizes its full benefit.
                            recommendations
    The BuildStrong Coalition has developed the following policy 
recommendations and principles, supported by data and science, that are 
critical to driving resilience across the homeland.
I. Secure More Resources for Mitigation
    Increase the funding for retrofits and investments in resilience 
before the next disaster, climate impact, or catastrophic failure.
    Mitigation saves lives, property, and taxpayer money. Mitigation 
also saves the environment. But the Federal resources to help build 
State and local capacity and fund risk-reducing, cost-effective 
mitigation projects that harden critical lifeline infrastructure and 
help individuals invest in residential resilience are woefully 
inadequate. FEMA and other Federal agencies need more tools to help 
impacted communities recover smarter and stronger and end the cycle of 
build, damage, rebuild. For example, while doubling the amount of funds 
available under FEMA's BRIC program represents a historical increase in 
resources available for pre-disaster mitigation and resilience 
projects, the fact that FEMA received almost $3.6 billion in project 
applications illustrates the scope of the need for far greater 
investment in resilience.
    And we know that this is a smart use of Federal resources that will 
save taxpayer dollars. Federal funding that promotes better land use, 
modern science applied to home construction, and increased mitigation 
measures can dramatically reduce the devastation brought by these 
disasters. Based on the findings of the National Institute of Building 
Sciences (NIBS):
  <bullet> Adopting Model Building Codes Saves $11 per $1 Invested
  <bullet> Federal Mitigation Grants Save $6 per $1 Invested
  <bullet> Exceeding Codes Save $4 per $1 Invested
  <bullet> Mitigating Infrastructure Saves $4 per $1 Invested
II. Create Resilient Homes and Communities Through Strong Building 
        Codes
    Create incentives for building stronger and tie existing Federal 
funding streams to the adoption and enforcement of strong, modern 
building codes, in order to better protect homes, families, and 
communities.
    Individuals and communities are kept safe in times of disasters 
through the strength of their homes and the infrastructure that 
provides critical resources and services in affected areas. This is 
particularly prevalent as we learn lessons from COVID-19 and begin to 
understand how to increase resilience to wildfires. Disaster-resilient 
and sustainable construction and the use of stronger building codes 
have been proven to save lives, reduce the damage of natural disasters, 
and protect the environment. In fact, one of the most cost-effective 
ways communities can guard against disasters is to adopt and enforce 
hazard-resistant building codes. Unfortunately, only a handful of 
States have adopted the most modern building codes, and many lack the 
resources to adequately implement codes. To help correct this paradigm 
at the Federal level involves creating incentives that encourage State 
and local governments to adopt modern building codes, while 
simultaneously equipping communities with the tools and resources 
needed to carry out meaningful enforcement regimes.
    In November 2020, FEMA completed a landmark building code study 
which concluded that modern building codes lead to major reductions in 
property losses from natural disasters. This study showed that over a 
20-year period cities and counties with modern building codes would 
avoid at least $32 billion in losses from natural disasters, when 
compared to jurisdictions without modern building codes.\3\ Adopting 
building codes is the single most effective thing we can do to save 
lives and protect property into the future. Further, the additional 
cost of construction features that allow buildings to survive natural 
disasters are not expensive and on average are less than 2 percent of 
total construction costs.\4\
---------------------------------------------------------------------------
    \3\ ``Protecting Communities and Saving Money: The Case for 
Adopting Building Codes,'' Federal Emergency Management Agency, 
November 2020. https://www.fema.gov/sites/default/files/2020-11/
fema_building-codes-save_brochure.pdf. Accessed June 4, 2021.
    \4\ NIBS, ``Natural Hazard Mitigation Saves: 2019 Report,'' 2019.
---------------------------------------------------------------------------
    With the return on investment and the level of resilience these 
investments help communities achieve, Federal programs need to drive 
the adoption and enforcement of building codes, provide resources to 
help communities, and make the critical link between program 
requirements and smart decisions.
III. Resilient Lifeline Infrastructure
    Require investments in lifeline infrastructure and those resources 
should be directed at risk-reducing, cost effective investments to 
promote the hardening of lifeline infrastructure and disaster-resilient 
construction and the adoption and implementation of risk-reducing 
standards.
    Disaster-resilient and sustainable construction and infrastructure 
is important to reduce the damage of natural disasters and protect the 
environment. Lifeline infrastructure refers to electric power, water 
and wastewater systems, natural gas and liquid fuel, telecommunication, 
and transportation. Disruptions in these systems due to disasters 
threaten lives and impede community recovery. Lifelines provide 
indispensable services that enable the continuous operation of critical 
business and Government functions, and without prompt restoration would 
risk health, safety, and economic security. Focusing on these lifelines 
allow decision makers to better identify key risks and facilities and 
more readily target projects that can help protect or restore critical 
functions during a disaster. By investing in the resilience of these 
systems, we can reduce, if not eliminate, the impact of disasters, 
allowing key infrastructure to be restored and reducing the duration 
and cost of recovery.
    Through the application of the highest building codes, standards, 
and technologies to these systems and ensuring access to resources to 
invest in mitigation by owners of infrastructure, we can ensure system-
wide increases in resilience in key lifeline infrastructure. This not 
only involves applying the highest codes and standards, but also 
leveraging resources to support and incentivize the adoption and 
enforcement of building codes and professional standards. This includes 
standards that strengthen and harden infrastructure, including the 
Nation's electric grid, against all hazards including wind, wildfire, 
flood, seismic, and ice. Disaster recovery and mitigation projects 
should also incorporate smart technologies to improve monitoring and 
distribution for lifeline infrastructure and require the use of 
resilient materials standards for lifeline infrastructure.
    Tremendous strides have been made in disaster resilience policy, 
with the passage of DRRA, but there is must more to be done and the 
progress we have made must be protected. As the leaders in disaster 
policy, you must remain steadfast and ensure that infrastructure, COVID 
recovery, and other disaster-related legislation continues to leverage 
the investment of Federal resources in a smart way to increase 
resiliency.
IV. Incentivize Investments in Resilience
    Incentivize investments in resilience through tax benefits, grant 
conditions, and easing administrative burdens.
    In addition to more resources for mitigation and communities, both 
public and private entities need incentives to drive their investments 
in mitigation. Whether by supporting the creation of Federal tax 
incentives that reward resilient behavior, the development of 
mitigation tax breaks, or other incentives, individuals and businesses 
will find it easier to invest in resiliency, including undertaking 
activities like retrofitting homes, if these resources are available. 
This would also foster private-sector investment in mitigation through 
new financing opportunities. Targeted tax incentives and removing tax 
penalties will encourage resilient construction techniques to withstand 
damage from strong winds or flooding and prevent losses from wildfires 
and seismic events. Through these investments, homeowners and 
communities ultimately save money through tax savings and avoided 
recovery costs and losses in the next disaster.
    The tax code and financial instruments can also be leveraged to 
drive creative financing and solutions that target underserved 
populations. By leveraging existing, publicly available data, like 
FEMA's National Risk Index,\5\ both community leaders and private 
investors can come together to analyze key risk factors, including 
social vulnerability, to help prioritize communities and projects for 
resources and technical assistance.
---------------------------------------------------------------------------
    \5\ Federal Emergency Management Agency, ``National Risk Index for 
Natural Hazards (NRI),'' https://www.fema.gov/floodmaps/products-tools/
national-risk-index. Accessed June 4, 2021.
---------------------------------------------------------------------------
V. Use Resilient American Products
    Ensure the use of resilient, American-made products in the 
construction and retrofit of lifeline infrastructure.
    Now more than ever, we need to support American jobs and American 
products. An investment in resilience across American communities must 
include long-term, non-emergency construction projects, including the 
hardening of lifeline infrastructure, that maximize the use of 
American-made goods, products, and materials. These efforts create jobs 
and fuel the economic engines in our communities.
VI. Build Capacity
    Ensure that State, local, Tribal, and regional entities are given 
the tools and resources to increase capacity and capability to identify 
risks and hazards and mitigate those risks before the crisis occurs.
    For this country to be successful in enhancing our resiliency, we 
must focus on capacity building for State and local governments and 
turn to considerations of sustainability, adaptability, and creative 
financial instruments that can be leveraged to drive socially 
responsible investments in resilience. State, local, and Tribal 
governments must increase their ability to mitigate against all 
hazards. Accordingly, they must increase their ability to identify 
hazards and successfully implement these funds to accomplish selected 
risk-reducing projects. Every level of government must understand how 
funding, programs, and resources can be applied and leveraged to make 
homes, businesses, and communities less vulnerable to severe weather. 
They need help connecting the dots between resources and brick and 
mortar programs that can strengthen the build environment for the 
future. We all have a role to play to help increase engagement and 
education efforts on mitigation planning, program requirements, and 
opportunity awareness.
    Building capacity also involves simplifying and streamlining 
Federal programs to make the resources more accessible and equitable to 
the communities most at risk. As resources are increased and spent, 
FEMA, the Department of Homeland Security (DHS), and this committee, 
will need to focus on effective grants management and oversight, 
including oversight by the DHS inspector general, and how to leverage 
them to invest systemically and systematically in national resilience, 
even across agencies.
    Further, regulatory controls must be loosened to facilitate and 
encourage public-private partnerships. Governments must work with the 
private sector to increase community and National resilience. The 
private sector owns the vast majority of the Nation's critical lifeline 
infrastructure and key--roughly 85 percent.\6\ The private sector is 
currently conducting high-level work throughout the resilience and 
mitigation arena and there is tremendous opportunity to utilize 
expertise and industry knowledge, take advantage of existing programs, 
identify best practices, and incorporate lessons learned from the 
private sector. By leveraging the private sector and encouraging and 
facilitating public-private partnerships, we can maximize available 
resources for the benefit of the entire country. Community leaders need 
to be connected with partners that can catalyze financial resources and 
human capital. Organizations like BuildStrong, the Institute for 
Business and Home Safety, and the International Code Council, among 
others, are serving as force multipliers, helping build capacity for 
investments in resilience.
---------------------------------------------------------------------------
    \6\ Government Accountability Office, The Department of Homeland 
Security's (DHS) Critical Infrastructure Protection Cost-Benefit 
Report, June 26, 2009.
---------------------------------------------------------------------------
                               conclusion
    As the 2021 Atlantic Hurricane Season gets under way, we are once 
again reminded that time is of the essence to ensure that we do 
everything we can to continue to incentivize and facilitate mitigation 
throughout this country. And in the face of climate risk, the 
BuildStrong Coalition will continue to work to create and enact 
policies, as the Coalition has done for the past decade, that have a 
real impact on helping individuals, businesses, and communities prepare 
for, and survive disasters.
    Chairwoman Demings and Ranking Member Cammack, thank you for 
convening this hearing and raising these important issues. I look 
forward to answering any questions you may have.

    Mrs. Demings. Thank you so much, Ms. Williams.
    Thank you to all of your witnesses for your testimony.
    I will remind the subcommittee that we will each have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    While the impacts of the climate crisis will vary depending 
on the specific U.S. region, in my home State of Florida, 
policy makers must grapple with the challenge of a longer and 
more intensified hurricane season. Additionally, as I am sure 
you all know, sea level rise continues to impact our coastal 
communities, contributing to flooding and erosion hazards, salt 
water intrusion, and changes to coastal ecosystems.
    Mr. Nye, please comment on the climate challenges in States 
like Florida and elaborate, if you will, on the impacts you 
expect the climate crisis to have on other regions of the 
United States.
    Mr. Nye. Thank you very much.
    So, in Florida, we have a problem where water is coming 
over the shore. As everybody--as the ocean gets warmer, it gets 
bigger. This is what causes sea level rise. The water is coming 
over the shore at places like Cape Canaveral, for example, and 
then water is also coming up through the limestone. So there is 
an irony, when you talk about diversity and equity, where 
people wanted to live near the shore in Miami Beach and Miami, 
2 closely-related but separate cities, but then, as sea level 
rise comes over the top and up through the limestone, people 
want to live on higher ground. So the areas that used to be for 
lower--favored by lower-income people are now being gentrified, 
and this is evidence of climate change, and it is difficult to 
get insurance in some places where you park your car because 
salt water gets in the wheel wells. So this is only going to 
get worse. We have got to stop putting greenhouse gases in the 
air, and we have got to come up with new ways to provide 
electricity that is renewable and reliable to everybody.
    The co-Chair--the Ranking Member made reference to you 
never know what broadband you are going to get. Well, let's 
make it so that the broadband is always good for everybody. 
When neighborhoods are healthy for working, then people work 
more and stay healthier. But we need big changes, everybody.
    I just reflect all the time on my parents who were both in 
World War II. My father was a prisoner of war for almost 4 
years. My mother was one of the code girls working to decrypt 
German submarine radio traffic. Everybody in the country was 
involved in solving this global problem. Everybody was on it. 
So----
    Mrs. Demings. Mr. Nye, you know what I loved so much about 
what you just said, though, everybody cared about it. This was 
not a Republican issue, a Democratic issue. Everybody in the 
country cared about this issue, and I think it is so critical 
to us getting to where we need to.
    I want to go quickly to Mr. Brown. You know, you talked 
about your perspective as an emergency manager. You are there 
on the ground. What are some of the on-the-ground emergency 
preparedness and response improvements you have seen at the 
local level since President Biden took office?
    Mr. Brown. You know, I think the conversation around 
climate change and the realness of the threat and the need to 
prepare has increased, and I think there is a greater focus on 
the mitigation and the pre-disaster mitigation.
    The additional funding, we have leaned forward and started 
to plan and work with our less-resourced communities to support 
them in developing their grant projects. We anticipate that 
grant being released later this year. There are limited 
resource communities, both urban and rural, that we have to 
provide some additional resources to. They have a part-time 
emergency manager or one-person shop. These are very vulnerable 
communities that we need to support.
    So, as these grant dollars are released, I hope that we can 
really talk about building capacity amongst emergency managers 
across the country. We should not have any part-time or one-
shop emergency management offices. These are full-time 
responsibilities related to preparedness, mitigation, response, 
and recovery.
    By broadening the field and the capacity also in emergency 
management, we can also build a diverse work force that we need 
so we have people from the community who understand the 
community needs and are able to respond more effectively.
    Mrs. Demings. Mr. Brown, thank you so much.
    I am going to at this time recognize the Ranking Member, 
Mrs. Cammack, for her questions.
    Mrs. Cammack. Thank you, Chairwoman Demings, and thank you 
again to all of our witnesses here today and to our colleagues 
who have joined us.
    So this question is for all of our witnesses. Like so many 
of the challenges that we face, borders and countries all share 
similar challenges. So I am going to pose this question to you 
all, starting with Mr. Brown.
    According to a recent media report, China now accounts for 
27 percent of total global greenhouse gas emissions, which is 
now more than all other developed countries combined. Now, to 
me, this just seems like one more reason to add to the list of 
why China poses an increasing threat to our homeland security. 
I am concerned when it comes to climate change, climate change 
issues, that Beijing will benefit the most if we hamper 
American innovation via new regulations and efforts to stifle 
innovation.
    So to what extent do you see China's climate impacts as a 
concern to the United States' homeland security?
    Mr. Brown. Thank you, Ranking Member.
    I think that this is a global challenge that requires every 
country, every State and local government to rise up to the 
challenge and become energy efficient. We have started to 
pursue looking at changing our fleet to promote energy 
efficiency. That is occurring across the State government as 
well, and so every policy change to promote energy efficiency 
and, as Mr. Nye mentioned, change the human impacts related to 
greenhouse gases would be appreciated and help to minimize the 
threat of climate change.
    Again, emergency managers are consequent managers. We deal 
with the impacts of climate change and----
    Mrs. Cammack. Mr. Brown, I hate to reclaim my time here, 
but I asked specifically about China. I understand the States' 
perspective.
    With that, I am going to have to turn on over to Mr. Bill 
Nye.
    Mr. Nye, could you comment on China's climate impacts as a 
concern to United States homeland security?
    Mr. Nye. Well, as we say, everything every single one of us 
does affects everyone in the world because we all share the 
air. So, as people in China try to reach the level of service 
that we have in transportation and energy use here in the 
States and the Western World, they are going to use more and 
more energy, and what we want is for China and places in the 
developing world everywhere to skip the greenhouse-gas-
intensive step and go to more energy-efficient, more renewably-
produced energy systems and retrogrades everywhere.
    So this--you know, as a guy, I was born in the States. I am 
from the United States. I want the United States to be the 
world leader in this. Look around you. Almost everything that 
you are touching and using right now is manufactured in another 
country. This is the up and on the downsize of globalization. 
But as those other countries go into more manufacturing-
intensive economies, they are going to produce more greenhouse 
gases.
    So what we want to do is lead. Yes, I understand your--very 
much understand your concern about competition from China, and 
so on. But this idea that if you give something to somebody, it 
means you have taken it from somebody else, this zero-sum idea, 
is not going to work in the long run because we all have only 
one atmosphere. So let's be leaders.
    I will advocate again for wind, solar, geothermal energy, 
heat storage, and I would like us to take some risks and invest 
in fusion technologies. This could, as I like to say, change 
the world.
    Mrs. Cammack. Now, Mr. Nye, before--and thank you for your 
comments. Before I jump to Ms. Williams, just quick yes or no--
--
    Mrs. Demings. The gentlewoman's time--I am sorry. Please, 
you have 47 seconds.
    Mrs. Cammack. I was going to say don't short me, don't 
short me, Chairwoman Demings.
    Mr. Nye, do you consider China to be a developing country?
    Mr. Nye. No. It is in between. It is--it is not easy to 
categorize it as one thing or the other. When you go there, 
there are extraordinary cities with cranes on every block and 
then the rural areas where people don't have clean water----
    Mrs. Cammack. I need to turn it over to Ms. Williams for 
the remaining 20 seconds that I have got. Thank you.
    Ms. Williams, same question to you with regard to China's 
climate impacts as it relates to homeland security.
    Ms. Williams. Well, I think we have very much established 
that increasing risks that are driving climate impacts and 
disaster impacts are a tremendous threat to our homeland, and 
we need to look at this globally. I think Mr. Nye and Mr. Brown 
highlighted the fact that this is a global conversation that 
the United States has an opportunity to lead, but we don't even 
talk about climate adaptation using the same language that 
other countries use. Adaptation, mitigation have different 
means here and there, and we need to make sure that we are 
leading by example but that we are also engaged in the 
conversation using the same terms, a same common understanding 
of what we are trying to accomplish so that we can tackle those 
that are the greatest offenders at driving these risks and 
impacts.
    Mrs. Cammack. Thank you.
    Mrs. Demings. The Chair thanks Ms. Williams for her 
response and thanks the Ranking Member for her line of 
questions.
    At this time, the Chair will also recognize other Members 
for questions they may wish to ask the witnesses. In accordance 
with the guidelines laid out by the Chairman and Ranking 
Member, I will recognize Members in order of seniority, 
alternating between Majority and Minority. Members are also 
reminded to unmute themselves when recognized for questioning.
    The Chair now recognizes for 5 minutes the gentlewoman from 
Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you so much, Madam Chair, and thank 
you to both of you, the Ranking Member and as well the Chair, 
for this particular very important hearing.
    If I am reminded, the reason why this is extremely 
important is because we are aware that, despite the pressing 
need to address the risks proposed by climate change, the Trump 
administration disregarding these challenges increased the 
likelihood that Americans would experience these risks 
unfortunately.
    Very grateful that we are beginning to turn the corner with 
the Biden administration and the American Jobs Plan and the 
administration's budget proposal, which has aggressively looked 
to rectify President Trump's failures and directly address the 
challenges that are so very important.
    I want to pose a question to Mr. Nye, and I thank you for 
recounting the history that suggests, in the work of your 
parents, that when there is a crisis, we all pull together. Let 
me put on the record, of course, what I experienced in 2017 and 
what I recently experienced as the beginning of 2021.
    2017, 21 trillion gallons of rainfall fell on Texas, 
Louisiana. Most of it was in the Houston Metroplex. I watched 
constituents of mine, a family of 6, wash away not in an ocean, 
not in a river, but in a bayou that flowed over into the main 
streets. Harris County covers 1,778 square miles, and 41,500 
square miles of land mass were impacted by Hurricane Harvey. 
That I might say was a catastrophic climate crisis.
    Then, again, in 2021, unbeknownst to us came a--when I say 
``unbeknownst,'' unexpected--unbeknownst came a freeze here in 
Texas with a grid that did not work which saw about a hundred 
people die.
    So, if I might, Mr. Nye, taking those 2 catastrophic 
incidences, quite different, one coming in the summer months 
unexpectedly, still trying to overcome, one coming in what is 
supposed to be winter, but we in Houston don't really know it 
that way, but life was lost, could you explain the scientific 
relationship between greenhouse gases and larger-scale climate 
events such as what I have just represented to you and for 
America to understand that the loss of life can continue to 
grow and grow under these natural--or maybe I should say 
unnatural disasters that have come about through the harshness 
of climate change and the inattentiveness that we have had over 
the decades?
    Mr. Nye.
    Mr. Nye. Thank you very much.
    So the problem fundamentally, as the world gets warmer, the 
ocean gets warmer. The ocean then drives these storms. So it 
is--as the water vapor goes up in the sky and condenses back to 
liquid and rains, the circulation is driven harder and harder, 
and so climate models--and the word ``model'' refers to 
computer programs--will try to predict the fluid mechanics, the 
way the air and water move around, the storms are getting 
bigger, and they are moving more slowly so they are dropping 
more water in places like Houston.
    Then the other subtle problem, or once was a subtle 
problem, is the jet stream; the circulation in the Northern 
Hemisphere gets pushed up and down as the world's climate 
becomes less stable as these storms move around. That caused 
this cold snap in Texas.
    Then, you know, I used to work in the oil field, and I have 
a sense of the prideful nature of Texans. I understand you have 
your own electrical grid, but it wasn't well-enough secured 
against the weather.
    Ms. Jackson Lee. Absolutely.
    Mr. Nye. So straightforward things were not done for years 
through, what my understanding, through free market ideas that 
this stuff would take care of itself, that any electrical 
grid--any electrical supplier would, of course, would, of 
course, invest in the necessary things to make sure things were 
safe. But apparently that is not what happened, and it was a 
catastrophe. This is what I talk all the time; we need all the 
regulations we need but no more, but we do need regulations.
    Ms. Jackson Lee. Can I quickly go to Mr. Brown for just a 
second? Thank you very much, Mr. Nye.
    When these disasters occur--you are the State coordinator 
of Emergency Management Services. I imagine you deal with a lot 
of first responders, police, EMS, firefighters. Can you explain 
how, when these disasters occur, you put real human beings in 
the line of danger as they have to rescue persons, provide the 
first line of defense for saving people? Could you just give us 
that information?
    Mrs. Demings. The gentlewoman's time has expired, but the 
witness may answer the question. Thank you.
    Ms. Jackson Lee. Thank you. I apologize, I cannot see the 
clock, but I thank you for your courtesy. Thank you so much.
    Mr. Brown.
    Mr. Brown. Thanks, Congresswoman. Thanks, Chairwoman.
    Yes, we help to coordinate all the first responders who put 
their lives on the line. When it comes to search and rescue, 
swift water rescue for the flooding events, they are right 
there to support our communities. Again, the capacity has been 
stretched using the grants that have been provided from the 
Federal Government. More is needed because of the higher 
frequency of these disasters, and they are occurring back to 
back, even overlapping. As I mentioned, as we responded to 
COVID-19, we are still responding to all of these other events 
as well.
    Ms. Jackson Lee. Thank you so very much.
    I yield.
    Mrs. Demings. Thank you. The gentlewoman's time has 
expired.
    The Chair now recognizes the gentlewoman from Iowa, Ms. 
Miller-Meeks, for 5 minutes.
    I believe you are on mute.
    There--no, OK. Yes, one more time.
    You are--I think you are--there we go.
    Mrs. Miller-Meeks. OK. Thank you so much, Chair Demings and 
Ranking Member Cammack and all of our panelists.
    With the rise in extreme weather events, it is worth noting 
that, according to FEMA, roughly 40 percent of small businesses 
hit by natural disasters never reopen, and I have certainly 
seen this within our State of Iowa.
    Further, 90 percent of smaller companies fail within a year 
unless they can resume operations within 5 days. This is 
obviously devastating to the livelihoods of so many of my 
constituents, many of whom are small business owners and are 
facing severe catastrophic threats all year around, from 
flooding, to tornadoes, and to the derecho that we had last 
year. We know that increased pre-disaster mitigation activities 
and strong modern construction standards are the best line of 
defense in the face of catastrophes and will ultimately save 
taxpayer dollars while protecting lives.
    On that note, Ms. Williams, can you talk about the 
importance of Congress working to create incentives that 
encourage business owners, homeowners, and communities to build 
more resiliently?
    Ms. Williams. Thank you, ma'am.
    I think the first question that these companies and 
businesses need to answer is, what are the risks that I face? 
The lack of knowledge of risk across this country is 
tremendous, not--you can't attack a risk that you aren't aware 
of. So I think that that is the first line of defense, is 
helping coming together as a community to identify risks and 
hazards as a system, not as an individual structure or an 
individual piece of infrastructure, but systemically, and that 
is how we build community resilience.
    Insurance is a key aspect of this. Individuals and 
businesses are not aware of the lack of coverage that they are 
facing in the wake of a disaster, and the Federal Government is 
not going to provide the resources to make them whole. So we 
spend a tremendous amount of time trying to educate people on 
how to cover their risks in a very meaningful way. But as you 
noted, the most important thing that people can do is identify 
that risk, draw down that risk through investments in pre-
disaster mitigation, and we will change the trajectory of the 
risk profile across this country.
    Mrs. Miller-Meeks. Thank you.
    As I stated, as one who represents a Midwestern State that 
runs along the Mississippi River, my district does not border 
the Missouri, but I also have the Missouri, we had flooding 
there, and then we had the derecho this past year, I have a 
deep understanding of the massive loss caused by flooding and 
other natural disasters.
    Because of this, I also know of the endless cycle of 
destruction where homes are built over and over again in the 
same subpar standards that often help lead to their destruction 
and have put communities, lives, and taxpayer dollars at risk.
    Ms. Williams, again, can you talk about the power of strong 
construction in the face of catastrophes, how you in the 
insurance industry help to mitigate that risk and identify that 
risk, and any examples you have, based on research performed by 
the Insurance Institute for Business and Home Safety, which you 
mentioned in your testimony, where the use of more modern 
building standards are proven to help homes withstand extreme 
climate events? What policies can we be working to create in 
Congress that will better shield communities like mine in Iowa 
from severe disasters?
    Ms. Williams. Thank you again. We have some very exciting 
things happening across this country as States are leading the 
way in helping individual homeowners invest in strengthening 
their homes. I know Mr. Brown probably has some comments on 
this too, as he has been keenly focused on underserved 
communities and how we can help strengthen their homes.
    If COVID taught us anything, it is the importance of 
housing as infrastructure. So our friends at IBHS have done a 
tremendous job, not only identifying those retrofits of the 
existing housing stock that need investments for roof tiedowns, 
for cripple wall stabilization, and for wildfire mitigation 
techniques that can significantly impact the risk posed to a 
homeowner.
    We are working with States across the country to help put 
resources in the hands of homeowners to draw down their risk 
and invest in their homes.
    So I think Congress helping certainly remove, as Ms. Hill 
said, the moral hazard of not doing the right thing and not 
investing in your homes, I think, is one of the most important 
things that Congressional leaders can do.
    As I mentioned in my testimony, tax incentives can also 
play a tremendous role for those that have the resources to be 
able to invest, to just get them over the hump to do the right 
thing before a disaster and not when we are worried about 
recovering from catastrophe.
    Mrs. Miller-Meeks. Thank you. Then I just wanted to make a 
mention to Mr. Nye--or Dr. Nye. Thank you so much. We found 
during the pandemic that there are regulations we no longer 
need. So, as important as regulation is--and safety--it is also 
important to realize when regulation is not needed, and I 
appreciate your comments on fusion and nuclear power as also an 
upcoming power source, so thank you.
    Mrs. Demings. Thank you so much. The gentlewoman's time has 
expired.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne, for 5 minutes.
    Mr. Payne. Well, thank you, Madam Chairwoman. That was 
quick. I didn't even get a chance to recognize myself, but it 
is a real honor and privilege to be here once again, and thank 
you for this timely, timely hearing that we are having today.
    Mr. Brown, as we continue to combat the effects of climate 
change, I would like to know how historically disadvantaged 
people, and specifically people of color, could benefit from 
the new green technology, additional infrastructure spending, 
and private-sector innovation.
    What are the steps that the Federal Government can take to 
deliver equitable relief to disadvantaged communities as we 
respond to climate crisis and extreme weather events?
    Mr. Brown. Thank you, Congressman.
    I really think we need to be intentional in terms of 
getting resources to the communities that we know are on the 
front line of these disaster impacts.
    We have a lot of great innovative tools, we have data, we 
have Census information, and we have the lived experiences of 
the communities in marginalized communities. Now we need to 
connect the dots and make sure that the resources, the BRIC 
program priority on marginalized communities actually get to 
these communities to reduce the impacts of climate change.
    We know that these communities are more at risk because of 
systemic and structural issues from the racism and 
discrimination from the past, such as redlining. There was a 
good study that was done from some Virginia professors that 
looked at the heat impacts within housing projects because of 
redlining.
    We need to be able to promote natural mitigation efforts 
and directly target those communities, and that is what we have 
done here in Virginia, prioritizing the communities that need 
the resources the most.
    Mr. Payne. Thank you. You know, it is clear we have seen 
that situation before. So we can remember the faces of Katrina 
and what most of those folks looked like that were stuck in 
that terrible situation.
    Let's see. Mr. Nye and Ms. Hill, vulnerable communities 
that were severely impacted by coronavirus remain vulnerable to 
other types of hazards such as those brought on by climate 
crisis. Please share a few ways in which the Federal Government 
can help poor and disadvantaged communities minimize those 
risks.
    Ms. Hill and then Mr. Nye.
    Ms. Hill. Thank you. The Federal Government has a critical 
role to play in assisting disadvantaged communities. One of the 
key ways is let's look at first the emergency response. We need 
to have better early warning systems in the United States.
    We could have 2 adjoining communities that have a very 
confusing system, and that would affect the ability of people 
to seek shelter in advance of event.
    We also know that, unfortunately, many Americans don't have 
ready cash to evacuate easily, quickly from their communities. 
This was front and center with Katrina. We need to make sure 
that we build plans so that Americans can seek shelter 
immediately and have ready cash--perhaps just send them cash 
immediately--so they are out of their homes and headed toward 
safety.
    We also need to look at the cost-benefit analysis of how we 
build infrastructure. Our infrastructure tends to favor 
wealthier communities than it does those who may be in most 
need and for whom it is most meaningful to have protective 
infrastructure. So that is changing the cost-benefit analysis.
    Finally, the last----
    Mr. Payne. Thank you.
    Ms. Hill. Oh, thank you.
    Mr. Payne. Mr. Nye.
    Mr. Nye. Well, I understand this idea that you want better 
evacuation routes, better early warning, and so on, but we need 
big ideas to protect everybody. For example, in redlined areas, 
apparently there are fewer--not apparently--there are fewer 
trees. So, if you want to stay cool in the summer, you actually 
have to spend more money on air conditioning. It is a subtle 
thing, but it is a real problem.
    What we want to do is to have access to good food, access 
to good schools, and access to good health care for everybody, 
and that means providing all 3 of those things, and especially 
the internet to everybody in every community.
    Because when you don't have access to the internet, you are 
not included in our economy. You are not included in 
opportunities for jobs or saving money on purchases. So we want 
that for everybody: Clean water, renewable electricity, access 
to the internet for everybody. That takes investment.
    I will just say again, this idea of being resilient is a 
fine idea, but just everyone on my side of this, be very 
cautious of that word because it has been used as a substitute 
for addressing the problem of putting too much greenhouse gas--
too many greenhouse gases in the air.
    Mr. Payne. Thank you, and I yield back.
    Mrs. Demings. The gentleman's time has expired.
    The Chair now recognizes the gentleman from New York, Mr. 
Garbarino, for 5 minutes.
    Mr. Garbarino. Thank you very much, Madam Chairwoman.
    My first question is for Ms. Williams. Specifically, the 
Biden administration recently announced that a billion in 
funding would be made available in fiscal year 2021 for the 
Building Resilient Infrastructure and Communities Grant 
Program.
    In response to that announcement, you say that the new 
resources in BRIC have made it even more imperative we continue 
to work around the Nation to prepare States and communities as 
they apply for funds.
    Going back to fiscal year 2020, what challenges did 
communities face when applying for BRIC funds, and how can FEMA 
ensure that communities are better equipped to apply for funds 
and grants in the future?
    Ms. Williams. Thank you, sir. Certainly we are continuing 
to learn lessons from the 2020 iteration of BRIC. Those 
announced awards probably will not go out until July or August 
from FEMA.
    But as a community, emergency managers and State leaders 
alike are really taking a look at what were the obstacles that 
needed to overcome, what communities were not engaged in this 
conversation.
    I am excited to say that every State, save 1, across the 
country, submitted applications for BRIC. FEMA did take an 
unprecedented step to try to inform folks of what would be 
required, the new requirements, standard criteria, under which 
BRIC would be awarded.
    But there was so, so much more we need to do, and that is 
really where we need to leverage our private-sector partners, 
our intergovernmental partners, to help build that capacity.
    One of the things that I think FEMA can do that will make 
the greatest impact as we go into 2021 is get out that Notice 
of Funding Availability. We need to know what we are dealing 
with, the criteria under which we are applying for these 
programs so that we can prioritize that.
    As Mr. Brown said, we can identify those communities that 
are falling through the gaps and get them additional technical 
assistance. Last year, FEMA only targeted 10 communities for 
special technical assistance, where they actually deployed FEMA 
personnel to help leverage and increase that capability to 
apply for BRIC.
    We need to see more of that as we target these communities 
that we really are seeing underserved in these mitigation 
resources.
    Mr. Garbarino. Thank you. I appreciate it.
    Mr. Brown, would you add anything in additional to what 
FEMA should be doing with this new round of funding, or did Ms. 
Williams hit everything?
    Mr. Brown. Thank you, Congressman.
    I think Ms. Williams hit everything. I go back to that 
technical assistance part of it. There is a designation for 
distressed communities that I don't think really 
comprehensively looks at all of the communities that need 
support.
    So we need to be more expansive in terms of how we provide 
technical assistance and really guide folks through the whole 
mitigation grant development process and also the management of 
it as well.
    These communities, again, are strapped and stressed with 
the consistent impacts of disasters and need a little bit more 
support.
    Mr. Garbarino. Great. I appreciate that.
    My next question is for Mr. Nye. As the Republican co-chair 
for the Climate Solutions Caucus in Congress, I would love to 
actually work with all of you and find out some ideas 
legislatively that you think we could add on and the caucus can 
get behind.
    But, Mr. Nye, your testimony mentions that to thwart 
climate change, larger actions need to take place, but 
preparedness and mitigation for extreme weather events begin at 
the individual, local level.
    How should communities prepare for the unpredictability of 
future weather systems, and what mitigation techniques can best 
prepare a community so they are not overwhelmed by response and 
recovery efforts?
    Mr. Nye. That is a great question. We have an interstate 
highway system. You ask people to get on the road, I guess. But 
what we want to do is not have the storms be so severe to begin 
with. You know, this idea that--like for example, in the case 
of a fire, if you have a house that is fire-proof, you still 
have to leave. You can't be there during the fire, and when you 
get back, there is nothing left.
    So what we want to do is address these problems in a much 
bigger way at the same time as we address them on local levels. 
As you all know, all politics is local, but still the Federal 
Government has an enormous role in making sure that everybody 
is looked out for.
    I think everybody agrees with these broad ideas, but when 
it is time to get going, that is when we have to, I believe, we 
have to invest. I really encourage everybody to just stop and 
take a moment and understand the difference between getting a 
loan, getting into debt, versus spending money you don't have. 
They are 2 different big ideas, and I think it is time for the 
Government to invest in a big way.
    Mr. Garbarino. I appreciate that, and thank you very much. 
I yield back.
    Mrs. Demings. The gentleman yields back.
    The Chair now recognizes the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you ever so much, Madam Chair. I thank the 
Ranking Member, and, of course, I thank the Chair of the full 
committee for all of his endeavors in this area.
    Mr. Nye made a salient point. He indicated that we must 
invest, and I completely, totally, and absolutely agree. But I 
do have a question for each of the witnesses because there is 
something fundamental that we have to embrace before we can 
invest, and it is this.
    You have to acknowledge that the problem exists. We have a 
good many people who are opinion-makers and opinion-shapers who 
will not acknowledge that the problem exists.
    If you acknowledge that it exists, then you do something 
about it. If you decline to acknowledge that it exists, then 
you have no reason to do anything about a problem that doesn't 
exist.
    So let's start with Ms. Williams--and you will each have 
approximately 1 minute, and I will let you know when your time 
is up--tell me, what would you say to my contemporaries, my 
colleagues, the opinion-makers and opinion-shapers, who have 
refused to acknowledge that the problem exists?
    What would you say to cause them to conclude that, yes, we 
have the problem, and, yes, we must invest?
    Ms. Williams.
    Ms. Williams. All we need to do is turn to facts and 
science. We have seen a tremendous uptick in the severity and 
frequency of these climate impacts and of disaster impacts.
    I am excited to say that IBHS has led the way for the 
insurance industry even issuing a statement on the importance 
of adaptation, and the science that has supported the movement 
across the industry and the sector, that we have to do 
something about it. This----
    Mr. Green. Ms. Williams, let me intercede for a second and 
do this for you. I am going to give you a little bit of 
additional time because of what you said.
    What do you say to people who have their own set of facts? 
They conclude that what you say is not necessarily what the 
facts reveal. What do you say to them?
    Ms. Williams. I have experience here. I was with your staff 
and Ms. Jackson Lee's staff even in the wake of Hurricane Ike. 
Let's just look at over the last 8 years what we have 
experienced in the increase in just what Texas has experienced.
    My experience is wholly different. Science supports that 
experience that these disasters are being driven by climate 
change and that they are increasing, and that if we don't do 
anything about it, we cannot sustain this trajectory.
    Mr. Green. Let me move on to Mr. Brown. Mr. Brown.
    Mr. Brown. Thank you, Congressman.
    Again, as an emergency manager dealing with the 
consequences of the impacts of climate change, we believe in 
the science and the data in Virginia. We have seen the 
consequences of more frequent flooding events, hurricanes. It 
was our busiest hurricane season as it was last year with the 
Atlantic hurricane season. Mudslides out in Southwest Virginia 
and in the mountains.
    We have seen the impacts of more and more of these 
disasters, tornadoes, et cetera. We have had more State of 
emergency declarations in the last 5 years than we have----
    Mr. Green. I have to intercede.
    Ms. Hill, please.
    Ms. Hill. Yes. Well, I draw on my background for this. I 
was a judge for 13 years on the Los Angeles Superior Court. In 
that capacity, I heard evidence, guided jury trials, based on 
scientific evidence. The science is clear here, beyond any 
standard of proof in any courtroom, and that is why you are 
seeing courts across the United States accept that climate 
change is occurring.
    The question for all of us, as this panel is very focused 
on, is, what do we do about it? So, going forward, we need to 
focus on what the science has told us and the choices that are 
ahead.
    Mr. Green. Thank you, Your Highness.
    Mr. Nye, please.
    Mr. Nye. Well, as you may know, I first was--I fought this 
for 30 years, trying to get people to accept the science of 
climate change. I offered 4 bets to 2 notorious climate 
deniers. I offered them $10,000 that 2016 would be the hottest 
year on record, 2010-2020 would be the hottest decade on 
record.
    Neither one of them would take either of the bets. I had 
$40,000 right there. They wouldn't take the bets because I 
think they are scared. We are all frightened. This thing is 
overwhelming.
    If you don't believe me, look, there have been these 
studies lately, world-wide, people are having fewer and fewer 
children. That is because women and men are a little reticent 
to bring a kid into the world where the world is on fire. So, 
everybody, we are in this together. We have got to fight this 
fight together. I am scared too, so let's get to work. Clean 
water, renewable energy, access to the internet for everybody, 
and we can change the world.
    Mr. Green. Mr. Nye, let me just close with this. Clear and 
convincing evidence does exist, but there are some people who 
decline to accept clear and convincing evidence, evidence 
beyond a reasonable doubt.
    Thank you, Madam Chair.
    Mrs. Demings. Thank you so much. The gentleman's time has 
expired.
    The Chair now recognizes the gentlewoman from New Jersey, 
Mrs. Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Madam Chair, and thank you 
to all of our witnesses who presented today. Your information 
has been very enlightening to me.
    I am really interested in exploring this whole issue of 
modern, disaster-resilient codes in municipalities, and I am 
wondering, what are the kind of incentives or support that the 
Federal Government needs to engage in and provide that would 
help these municipalities update their codes?
    Or what is stopping them from doing that? I will start with 
you, Ms. Williams.
    Ms. Williams. Thank you, ma'am.
    As I stated, the single most important thing we can do is 
get people in modern--not only adopted but enforced building 
codes, and the Federal Government does have a tremendous role 
that can be played. Certainly with the passage of DERA, making 
eligible activities related to the adoption and enforcement of 
building codes eligible for mitigation assistance was a key 
step, providing these Federal resources to help communities.
    But, again, we are still at the education stage. We need to 
help communities understand what gains they will accomplish in 
resiliency by adopting these codes. FEMA, last November, did a 
tremendous job, did a study that showed that, over the last 20 
years, in communities that have adopted building codes, $32 
billion of damages are being avoided. That is huge.
    Again, data, science is showing that the proof is in the 
pudding. The best investments you can make are in the adoption 
of building codes.
    Furthermore, they found that, on average, the increased 
cost of these resiliency measures in home construction is less 
than 2 percent. So, again, we have a tremendous opportunity to 
not only leverage education but resources, particularly at the 
most underserved communities to help get them to not only 
building smarter but literally retrofitting the existing 
housing stock.
    Mrs. Watson Coleman. Thank you.
    Hey, Mr. Brown, would you like to comment on that, and do 
you have any idea what we would be talking about, about the 
additional resources, the amount of resources that we are 
lacking here?
    Mr. Brown. Thank you, Congresswoman.
    You know, I think incentives and support, as Ms. Williams 
mentioned, the proof is in the pudding, stronger building codes 
result in better resilience. I am happy to say Virginia has 
some of the strongest building codes in the country. We have 
seen the impact and result of that. So, working with local 
governments, providing additional resources, showing them the 
data and the information----
    Mrs. Watson Coleman. Yes.
    Mr. Brown [continuing]. Will hopefully get them to support 
enhancing their building codes.
    Mrs. Watson Coleman. So we already have resources that are 
available to municipalities that wish to embrace these 
additional--and modern and resilient building codes. Some 
municipalities have not.
    Do we need additional resources to help them get there? If 
so, what do you think we are talking about?
    Mr. Brown. I do know that the BRIC program building code 
support is allowable expense, and so with that additional $500 
million hopefully that will promote incentives for educating 
and supporting and enhancing building codes on the local level.
    Mrs. Watson Coleman. So thank you.
    This is a New Jersey question, and this is just sort-of a 
general question having to do with, you know, findings of the 
United Nations Intergovernmental Panel on Climate Change when 
they released their report stating, in order to avoid 
temperature rising 1.5 degrees Celsius, et cetera, the world 
had to take drastic changes to reduce greenhouse gases in 12 
years.
    That was 3 years ago, and even with the writing on the 
wall, we still see people who are denying, and we are also 
seeing incremental steps being taken where we think we need 
bold action.
    In the State of New Jersey, we had a horrific storm with 
Hurricane Sandy, and not only did we lose significant 
properties on the coastline, but we even lost interior 
properties where you found even lower-income individuals.
    They are still recovering. We still need resources, and we 
still need changes. What is the role of the Federal Government 
in terms of bold versus incremental that will help us get 
there? Dr. Nye, Ms. Williams, and Ms. Hill, I would like to 
hear from you quickly on that.
    Mr. Nye. Well, if you want to do something bold, let's 
invest in fusion energy. I am not saying it will work, but 
let's take a chance.
    Then another thing that just is an accident--by that, 
legislatively--the Jones Act, where you can't erect a wind 
turbine off the coast of Virginia without taking your ship to 
Nova Scotia to bring it back down to Hampton Roads, to erect a 
wind turbine.
    This is going to take--look, I am in 2 unions, I 
understand. I understand what it is to work union. It is going 
to take negotiation with unions, negotiation with ship 
builders, it is going to take investment in building those big 
ships that can erect those things.
    Then if we could somehow negotiate with the shipping 
industry so that we didn't burn this bunker fuel oil. This is 
the dirtiest petroleum product going, and it is all over the 
world, and we all rely on these ships.
    If we had standards that required ships to have cleaner 
emissions, and you couldn't dock your ship in the U.S. port 
unless you had a clean emissions ship that was certified by the 
clean emissions ship council someplace, you could change the 
world.
    Mrs. Watson Coleman. Yes, thank you, Dr. Nye.
    Mr. Nye. There are incremental steps that would have a huge 
effect.
    Mrs. Watson Coleman. I appreciate that. I just read some 
stuff about that that was very telling.
    Ms. Hill, may I have some comments on----
    Mrs. Demings. The gentlewoman's time----
    Mrs. Watson Coleman. OK.
    Mrs. Demings. The gentlewoman's time has expired. We may 
have time for a second round of questions. So thank you so 
much.
    The Chair now recognizes the gentlewoman from New York, Ms. 
Clarke, for 5 minutes.
    Ms. Clarke. I thank you, Madam Chair, and I thank our 
Ranking Member for the very important hearing today. I want to 
thank our panel of experts for providing us with some insights 
and certainly your expert opinions and factual-based opinions 
on what our Nation needs to do to really mitigate the damages 
and address fully the climate crisis that is before us.
    I want to pick up on a theme that my colleague, 
Congresswoman Bonnie Watson Coleman, just expressed during her 
comments, and it is the fact that a new 2021 report from the 
United Nations found the average global temperature is now 
consistently 1 degree Celsius hotter than it was only about a 
hundred years ago in the late 1800's, and meteorologists expect 
the global temperature to continue rising to 1.5 degrees 
Celsius, or warmer, by the middle of this century unless 
drastic action is taken to lower global greenhouse gas 
emissions, full stop.
    So, Dr. Nye, can you describe some of the most dangerous 
global implications of climate change on human population, such 
as migration, such as drought, such as agricultural capacity, 
as we move toward that pivotal 1.5 degree Celsius benchmark?
    Mr. Nye. [Inaudible.]
    Ms. Clarke. Dr. Nye, I think you may be muted.
    Mr. Nye. Excuse me. The effects are potentially quite 
large, astonishingly large. If we get these 5 storms happening 
around the world at the same time, which, as some computer 
models suggest, we would have to invent a Category 6 hurricane. 
This would be devastating to coastal communities, people live 
there, especially people of lower income live in lower 
elevation neighborhoods. As the water pattern, rainfall 
patterns shift from West to East with the shifting jet stream, 
there will be more fires out West, and there will be less 
agriculture there.
    If you live in the Eastern Time Zone, as half of the United 
States and Canada do, a lot of your food comes from that 
agricultural area. If it is not possible to grow food there and 
we continue to tap into the aquifer and drain the water, the 
ancient water, that we rely on for agriculture right now, we 
will run out of food.
    I have colleagues at the University of Copenhagen who are 
very concerned about what happens in the heartland of North 
America because that is where their food is grown.
    When we displace coastal populations, people who live on 
the coast are going to go looking for jobs. Where are they 
going to go? Where are they going to live when they get there? 
What is going to happen to all the material that they left 
behind, the copper pipes and wiring and all that electrical 
grid equipment? What is going to happen to that?
    If you like to worry about things, you are living at a 
great time. If we accidentally destroy the electrical grid, we 
do not have the capability right now to build new transformers.
    Those of you who live in Texas remember this infamous 
picture of the sparks going down the wire and the transformers 
exploding. Well, we will just make new transformers. No. In 
order to make transformers, you need electricity. But you can't 
get electricity because you don't have a transformer.
    OK. It is the kind of thing that we need to prepare for. 
These are huge problems, and the sooner we get started and the 
sooner we accept that we are all in it together, the sooner we 
are going to get it done.
    Ms. Clarke. Thank you, Dr. Nye.
    Ms. Hill, could you please describe how these climate 
changes will lead to, and in some instances, are already 
leading to international instability such as the rise in 
extremism and violence? Because I don't think we are really 
talking about the global impact that we face.
    Ms. Hill. Thank you. This is a very important question. We 
have seen that these types of extreme events can have dramatic 
impacts on National security and global security.
    Because climate change affects human security, access to 
fresh water, livelihoods, food, it really cuts at the heart of 
the stability of people's lives. So we saw in Syria, a 
migration after the worst drought in 1,200 years, millions of 
people to other areas in Syria, mostly young men, highly 
destabilizing for the receiving communities. Then, in addition 
to many other factors, we saw migration heading toward Europe.
    We have seen bad actors, terrorists, organized crime, take 
advantage of extreme events to recruit and expand their 
territory. During flooding in Pakistan, the Taliban used the 
opportunity of the government's ineffective response to the 
flooding to attempt to recruit new members within their ranks. 
We see this also occurring with ISIS and other terrorist 
organizations.
    It is a huge vulnerability for the United States. As these 
impacts cut across the globe, there will be people who are 
suffering, and in their time of need, they will be highly 
vulnerable to organized crime and other networks, including 
extremists who want to increase their influence. So we need to 
help them at home.
    Mrs. Demings. The gentlewoman's time----
    Ms. Clarke. Thank you, and I yield back, Madam Chair.
    Mrs. Demings. Thank you so much.
    The Chair now recognizes the gentlewoman from California, 
Ms. Barragan, for 5 minutes.
    Ms. Barragan. Thank you, Chair Demings, for holding this 
important hearing on the National security threats that climate 
change poses to the security of our country and our 
constituents.
    Without major action by the United States and countries 
around the world to reduce emissions, we are at risk of global 
temperature increases of 3, 4, or even 5 degrees Celsius.
    I believe that we need to make clear to the American people 
that this would mean that we have to take bold action to head 
off this dangerous future, something that we will start to do 
with the American Jobs Plan.
    We heard, Mr. Nye, you give the analogy that I really loved 
about climate and our planet and a 747 airliner. That really 
resonated with me, and I thought it was a great analogy, and I 
want to take that analogy one step further. You know, if our 
Earth were the 747, right now we have seen the 1 percent degree 
Celsius warming.
    We are experiencing, with only that 1 percent, significant 
turbulence from that change in our climate--stronger droughts 
and wildfires and hurricanes.
    So, Mr. Nye, I was going to ask you, what would the state 
of that 747 be, and our planet and our homeland be, if we were 
to get to the 3 percent, the 4 percent, or the 5 percent 
degrees Celsius of warming? I know you spoke a little bit about 
this. Is there anything else that you want to add?
    Mr. Nye. Well, the climate models are accurate. The 
computer models have proven repeatedly to be robust. I referred 
earlier to the study that Exxon kept internal in the 1970's, 
and then in 1982 is the famous document or infamous document.
    They were concerned with, the state-of-the-art of the 
computer modeling at that time was doubling of carbon dioxide 
in the atmosphere, and they predicted that the poles would be 
more severely affected or have greater swings in temperature 
and more ice melting. That has proven to be true.
    They talked in doubling the amount of carbon dioxide would 
take it from, in those days, 340 parts per million to 680. 
Well, my friends, we are well over in 400 parts per million. We 
are at 415, world-wide.
    As it gets bigger and bigger, the effects are going to get 
stronger and stronger. Now, you have heard people say this, but 
trust the science, everybody, it is a real thing. I like to 
remind everybody who is watching----
    Ms. Barragan. Thank you.
    Mr. Nye [continuing]. In the United States, this is 
available in table 8, clause 8, refers to the progress of 
science and useful arts. This is in the Constitution. The 
progress of science is in our economic interest.
    So, everybody, the computer models have proven to be true. 
Let's get to work, reduce greenhouse emissions, and do these 
other financial and investment things that people have 
discussed at this meeting.
    But, first, as we have all discussed, we have to 
acknowledge that we have the problem and get to work.
    Ms. Barragan. Thank you so much for that.
    Ms. Hill, you spoke about how climate will drive increase 
in migration. On an international scale, a warming climate is 
impacting migration patterns. We have to think through humane 
solutions to accommodate migrants displaced by climate change.
    Ms. Hill, there are many factors that contribute to 
immigration, but climate change isn't discussed enough. Upwards 
of 20 million people are displaced by weather-related disasters 
each year. This is happening in our own backyard, driving 
people from their homes and to our borders.
    Could you describe how extreme weather events worsened by 
climate change are causing displacement and migration that 
could undermine homeland security?
    Ms. Hill. Yes. We are seeing the pressure right now at our 
Southern Border. We are seeing Central Americans come in 
unprecedented numbers. When I was at the Department of Homeland 
Security, I oversaw the first surge of unaccompanied alien 
children from those countries.
    We have examined the factors that are causing that drive in 
migration. There are many, as you have said, but one of them is 
new extremes that are affecting agriculture, drought, coffee 
rust.
    Then, as livelihoods are affected, it gives opportunity for 
criminal gangs to expand their territory. It becomes more 
dangerous for those, and we see young people on the move, 
headed north, in search of a better life.
    We do not have the legal framework internationally to 
accommodate what we call--are commonly referred to as climate 
refugees. Under our international law, there is no such thing 
as a climate refugee.
    So, as you so importantly point out, we need to come up 
with a better system to address flows of migration that will be 
driven by climate change. We are already seeing unprecedented 
people on the move, just this year in terms of even in the 
midst of a pandemic.
    Three-quarters of--approximately 40 million people on the 
move were driven by climate extremes, droughts, floods, and 
other acute events that caused people to leave their homes. We 
need a plan, and we don't have one yet.
    Ms. Barragan. Thank you.
    Mrs. Demings. The gentlewoman's time has expired. Thank you 
so much. I want to thank our panel for their expertise and 
their patience. As you can see, this is such a critical topic, 
and this is so timely.
    We do have time for another round. If you, Members, would 
like to ask additional questions, please turn on your cameras, 
and at this time, the Chair now recognizes the gentleman from 
Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Madam Chair. I am grateful for the 
second round, and I have a continuation of the first, but with 
just a different twist. I was hoping that we would have a 
second round to be quite candid with you. Here is the twist.
    Let us assume that we have the legislation to do the big 
bold things that you would have us do, dear friends, and let us 
assume that to do these big bold things, we have to do them 
without the consent of everyone.
    Let's just assume that we have people who have similar 
ideas willing to move forward together, and these persons who 
are willing to move forward together happen to be of the same 
party.
    Here is a question for you. I ask this because everybody 
wants bipartisan support for what we do, and as do I, by the 
way. I welcome bipartisan support.
    But if we get to the big things, the things that you talked 
about, and we want to accomplish these big things and we don't 
have the bipartisan support, do we move forward and do the big 
things? Or do we wait until we can get the support that 
everybody wants?
    Mr. Nye, what say you?
    Mr. Nye. Well, you got to work the problem from both ends. 
I will say----
    Mr. Green. Mr. Nye. If I may intercede, Mr. Nye. Let's take 
the world that I live in and deal with it, if you don't mind. 
The world that I live in, dear brother, dear friend, Mr. Nye, 
whom I have great respect for--I hold you in the highest of 
esteem--but the world that I live in, is one wherein we have 
some who believe one thing and some who believe another. They 
are guided by their beliefs to the extent that they are 
directed with their votes.
    So now my question is, what do I do, if I can go forward 
and do these big things, but I can't do them in a bipartisan 
way? What do I do?
    Mr. Nye. Well, if you are asking me, you go for it. The 
problem, I think, everybody should be aware of----
    Mr. Green. Well, but I appreciate that. Your answer is that 
we should go for it. OK. I appreciate that.
    Ms. Hill, what do you say we do?
    Mr. Nye. Hang on.
    Mr. Green. I am going to come back to you----
    Mr. Nye. That is an attention-getting opening line, sir.
    Mr. Green. I understand that. I am going to have to go off. 
I will come back to you.
    Ms. Hill, what do we do?
    Ms. Hill. I think that we should lay as much foundation as 
we can for the time when we will have bipartisan support for 
this----
    Mr. Green. So your answer is, until we get bipartisan 
support, we shouldn't go forward.
    Ms. Hill. No. We should be laying the ground work----
    Mr. Green. Let's assume we have laid the foundation, and we 
don't have the bipartisan support. This is the world that I 
live in, and we don't have the support. What do we do?
    Ms. Hill. I think there is much we can do without 
bipartisan support and, of course, in partnership with the 
administration.
    Mr. Green. So you would say go forward?
    Ms. Hill. I think there are Executive actions that can be 
taken--yes, we need to move forward in every area----
    Mr. Green. Move forward? All right. Thank you, Ms. Hill. I 
greatly appreciate it. I am so sorry about the time.
    Mr. Brown, what do we do, in the world that I live in?
    Mr. Brown. Congressman, I think bold action is needed. 
These are life-or-death and urgent issues, and that is why I 
mentioned appreciating the Executive action that the 
administration has taken to provide more resources and----
    Mr. Green. So is your answer go forward?
    Mr. Brown. Bold action is needed, sir, to move forward.
    Mr. Green. So does that mean move forward, Mr. Brown? 
Unfortunately, I have been trained to ask questions to the 
extent that I get an answer.
    Mr. Brown. It means move forward, sir.
    Mr. Green. All right.
    Ms. Williams--and Professor Nye, believe me, I am coming 
back to you, Mr. Nye--Ms. Williams, what do you say?
    Ms. Williams. Absolutely move forward. We laid foundation 
20 years ago of things that we are accomplishing today that at 
one time was not bipartisan. You must move forward. It is 
imperative for us to be transformational and to act big.
    Mr. Green. Thank you.
    Now, Mr. Nye, I am coming back to you, and my clock is not 
up, so I don't see how much time that I have left, because I 
have a comment that I would like to give.
    Madam Chair, can you just quickly tell me how much time----
    Mrs. Demings. You have 46 seconds.
    Mr. Green. OK. Well, Mr. Nye, you can have 20 of my 46.
    Mr. Nye. Well, we got to make sure that the next election 
is secure, and I mean it in the traditional way. If we end up 
with a situation in the United States where we have Minority 
rule through gerrymandering, through these extraordinary laws 
that people are trying to pass, it is going to be trouble for 
everybody, for the Minority especially.
    I lived in Washington State for a long time. I vote in 
California now. I voted mail-in for over 40 years, and look, I 
am fine. Everybody, we can do this.
    Mr. Green. I am got to take care of my seconds, Mr. Nye, so 
I take it, you still say move forward?
    Mr. Nye. Yes. My understanding, it is different in the 
House of Representatives from the Senate----
    Mr. Green. Let me close out with this.
    Madam Chair, if I could just have just a second.
    This committee does do a lot of things in a bipartisan 
fashion, so I don't want you to think that these comments were 
directed to the persons on this committee. But I live in a 
world that is outside of the committee.
    Thank you, Madam Chair.
    Mrs. Demings. Thank you so much.
    The gentleman from Texas yields back, and the Chair now 
recognizes the gentlewoman from California, Ms. Barragan, for 5 
minutes.
    Ms. Barragan. Thank you, Madam Chairwoman, and the 
conversation is just so interesting, I had to stay on for the 
second round.
    Mr. Nye, I am going to start with you. I am going to let 
you finish your answer that you were giving on--given that we 
are limited to 5 minutes. So, Mr. Nye, is there something that 
you want to conclude with on that last thought that you had?
    Mr. Nye. Well, it is not in anybody's best interest to not 
have everybody's vote count, and it certainly looks like people 
are working to try to suppress votes. This is catastrophic, 
everybody. I know everybody waves their hands about this, but I 
want--we are all in this together.
    When we have this situation with continual deadlock, it is 
keeping us from taking action on climate change. So let's--
everybody, let everybody vote. Let's get people who accept the 
science as per the Constitution, and let's move forward.
    I understand; it is a frightening time. I get it, but we 
are all more alike than we are different. We have more in 
common than we have differences. So let's get together, and 
this notion of trying to pass these enormous bills--I don't 
work in your world, but if we can pass a few bills and chip 
away--you know, the longest journey begins with a single step--
perhaps we can get things done.
    But I just encourage everyone to realize how serious this 
problem of climate change is, how it affects everyone on Earth, 
and how we have got to work together to move forward. 
Everything is bad when we let these climate effects affect so 
many people.
    Ms. Barragan. Thank you, Mr. Nye. I could not agree with 
you more, and it is hard when, in Congress, you have the leader 
of one party say, ``Hey, we are just going to oppose everything 
the President is trying to do,'' and that makes it more 
challenging to reach that bipartisanship.
    But I wholeheartedly support it and do hope that we get our 
friends, as we have been hearing on this very hearing, on both 
on sides of the aisle, talking about climate change and the 
threat to our homeland. We have got to work together.
    Mr. Nye, I want to go back to something you wrote in your 
testimony about building utility systems that work all the time 
and robust electric grids. One resilient solution I have 
strongly supported is clean energy microgrids to help keep the 
lights on when there are wide-spread power outages from a 
disaster.
    Can you talk about how clean energy microgrids can be a 
resilience and climate solution?
    Mr. Nye. Oh, that is a great question. There is a wonderful 
analogy. When our electrical grid was created, we developed 
power plants; the bigger, the more efficient they could be. 
Well, now, with solar and wind and geothermal, the smaller, in 
many regards, the more efficient they are.
    In the same way, we hand a phone call from one cell to 
another, a mobile phone goes from cell to cell, now with the 
satellite systems, we will hand the internet from constellation 
member to--satellite to satellite.
    We can use that same sort of technology to have distributed 
power generation on the roof of every, for example, big-box 
store, and then connect it with a much more sophisticated set 
of software systems, so that when the power is not available 
one place, it is available somewhere else.
    If you want to invest in something, and I hope we all do, 
let's invest in battery technologies, let's invest in heat 
storage and geothermal.
    As I said earlier, I have met some people that make me 
think that fusion is not as strange as it used to be.
    So I would like to have us invest in all those things and 
have the power distributed in a much more sophisticated way 
than we do now.
    Ms. Barragan. Thank you, Mr. Nye.
    Mr. Brown, with the 1 minute left, can I also get your 
perspective on clean energy microgrids as a resilience 
solution?
    Mr. Brown. Yes, Congresswoman, yes. I definitely think that 
is needed. You know, we saw the impacts just a couple weeks ago 
on the pipeline cyber attacks. So we need to focus on building 
resilience, using the best technology possible, doing things a 
different way.
    During disasters, you know, first responders need these 
tools in order to save lives, and so we need to make those 
investments.
    Any Federal support to support innovation on the State 
level for implementing those strategies would be definitely 
supported.
    Ms. Barragan. Well, thank you for that, and thank you, 
again, Chairwoman, for this hearing. I think we have heard a 
little bit about how it is so important we invest in our 
infrastructure, our critical infrastructure, in particular, and 
what it means if it goes down, and what kind of a threat that 
would be for the homeland and for being a terrorist threat. 
With that, Madam Chairwoman, I yield back.
    Mrs. Demings. The gentlewoman yields back, and thank you so 
much.
    You know, I really appreciate all of the participants in 
this hearing. This issue is real, and people expect for us to, 
No. 1, acknowledge it, not just say something but to do 
something. I want to thank all of you but particularly the 
gentleman from Texas--Texas and Florida but all of you.
    We would rather not go it alone, but we certainly have to 
be prepared to go it alone because we have to do something 
about this critical issue.
    I don't see any more Members on my screen at least, so I 
would just like to end with 2 additional questions if I may. I 
did have to step out for a minute, so if we have discussed 
this, please forgive me. But, recently, Secretary Mayorkas 
announced the launch of the DHS Climate Change Action Group, 
and we are excited about that commitment and really the 
potential for what this group can do to address this issue. So 
this question goes to all of the witnesses.
    What issues would you recommend the group examine to help 
our Nation confront the threats posed by the climate crisis, 
and what are some of the actions you recommend the Department 
of Homeland Security take to respond to the climate crisis? So, 
Ms. Williams, we will start with you.
    Ms. Williams. Thank you, ma'am. I do think that investment 
in our critical lifeline infrastructure is one of the most 
important focuses that we can have with regard to climate 
impacts and disaster impacts.
    One of the things that does concern me is making sure that 
disaster impacts and severe catastrophic weather is something 
that is at the forefront of the homeland security conversation 
because when our communities aren't safe, our homeland is not 
safe. With those increased vulnerabilities, we must--must--
tackle that.
    Mrs. Demings. Thank you so much.
    Ms. Hill.
    Ms. Hill. Yes. Well, I led the creation of the DHS Roadmap 
for Climate Adaptation for President Obama. There are a number 
of things that the Department could immediately do. The thing 
that I would call out is the Department should be a leader in 
this space. Of all our Departments across the Federal 
Government, it has the broadest reach, the deepest reach, into 
our State, local, Tribal leaders. Those communities, everyone 
needs assistance.
    Risk communication, understanding how to bolster critical 
infrastructure, deal with cascading impacts of climate change, 
and the DHS should step forward and lead among its fellow 
Federal agencies to accomplish real resilience for the United 
States, including that National resilience plan that you 
mentioned, Chairwoman Demings.
    Mrs. Demings. Thank you so much, Ms. Hill.
    Mr. Brown.
    Mr. Brown. Thank you, Chairwoman. I really believe the 
Federal Government, and DHS in particular, can support State, 
local, and Tribal Governments with additional resources and 
technical assistance, streamline some of their processes to get 
resources to communities that need the support the most, the 
marginalized communities, the front-line communities, that are 
going to continue to face the greatest impacts of climate 
change as we move forward.
    Mrs. Demings. Mr. Nye, you talked earlier about, you know, 
looking at other countries. Yes, we need to do that, but the 
United States should be a world leader on this issue. What 
would your answer be to this question?
    Mr. Nye. Let's be a world leader. What I am hoping is that 
we will cultivate a generation of civil servants, that people 
believe in and trust, and the civil servants in this case are 
people that do land-use planning, people that fund the robust 
electrical grid that has distributed generation sources, and 
hiring the kind of engineers, coders, developers, who will 
prevent a cyber attack of any kind.
    They would work for the U.S. Government. They would take 
pride in their work. We would trust them. They would prefer to 
work for the Government rather than the private sector because 
of the job satisfaction you get from that.
    Mrs. Demings. Ms. Jackson Lee, I see you.
    Go ahead, Mr. Nye.
    Mr. Nye. When I think about my colleagues in Denmark, a 
friend of mine married a Danish guy because she says she could 
live the American Dream. People are right now saying that 
Venezuela is a model of socialism. Maybe. But in Denmark, they 
have these distributed systems. They have public health care. 
They have these things. And they have huge corporations.
    So, if we were to invest in--I keep bringing up fusion--if 
we were to invest a hundred million in fusion companies, then 
private investors would show up after the Government has showed 
leadership in this. That's an example, but we can do this. 
Let's go.
    Mrs. Demings. Thank you so much.
    With the time that I have left, to all of the witnesses 
again, what actions specifically do you think FEMA should take 
to better address the climate crisis? FEMA. We will start with 
you, Mr. Nye.
    Mr. Nye. Distribute--make sure that people have access to 
the internet so they know what is going on in the world----
    Mrs. Demings. Thank you. Thank you so much.
    Mr. Brown, we are going to go to you.
    Mr. Brown. Thanks, Chairwoman. There are multiple reports 
that talks about the inequities in FEMA programs that need to 
be eliminated to support the marginalized communities that are 
on the front line. I think addressing that will be the most 
urgent issue.
    Mrs. Demings. Thank you.
    Ms. Hill.
    Ms. Hill. Review all the programs in light of the risk 
placed by climate change, as well as on the disproportionate 
impact on certain communities in the United States.
    Mrs. Demings. Ms. Williams.
    Ms. Williams. I think all of that can be also summed up in 
capacity and capability for our State, local, and Tribal 
Governments. If they can't be successful, it doesn't matter how 
many resources we throw at it. So that capability building is 
just key and crux to this issue, and FEMA is in the best 
position to do that.
    Mrs. Demings. Thank you so much.
    The Chair now recognizes the gentlewoman from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Madam Chair, thank you so very much, and I 
wish to raise my questions with Ms. Hill, and I will try to 
combine them.
    Whenever we begin to talk about climate change, opponents 
consistently say that mitigation efforts are too costly. I 
would like your response as to whether or not there is a cost-
benefit analysis in investing in mitigation.
    Then, in your experience at DHS, do you perceive, as I do, 
that the climate catastrophes really impact on domestic and 
National security? If you could combine those questions, and 
then I have another question. Thank you so very much. Ms. Hill.
    Ms. Hill. Yes. For those who say that it is too costly to 
reduce our emissions, I can only respond, look at the costs we 
are already incurring right now from climate impacts, and as we 
have heard, these impacts will worsen over time. They are 
permanent, and they will cause lasting change.
    Virtually every system we have depends on a stable climate. 
We no longer have a stable climate. So we will have enormous 
economic costs involved. When we have economic loss, we have 
threats to the National security. We are seeing those play out 
already across the globe, and it will be a challenge for the 
United States to respond to the number of humanitarian crises 
that we will see as a result of climate events.
    We can't, in any way, respond to the type of events that we 
will see, in a meaningful way, unless we cut our emissions, as 
we have heard here today, so--military is already busy at work 
preparing itself, but there is tremendous amounts to be done.
    Our military installations are not operational and 
effective yet in the face of what we will see. We will need to 
bolster them as well at also an enormous cost.
    Ms. Jackson Lee. Well, I think we will find out--if we can 
educate the American public how broad the landscape is, that 
climate change impacts their very life, their very degree of 
security, their very bottom-line dollar, then maybe we would be 
able to be very successful in going big on the American Jobs 
Plan.
    But I had to deal with, believe it or not, the question of 
risk-mapping in my own community, dealing with a whole series 
of neighborhoods that were mapped into a high flood area, 
losing their property, in terms of its worth and asking them 
literally to move out.
    We gathered FEMA and began to be able to reorder that map 
and save their homes, got them to shore up their homes, if you 
will. So I would be interested in your testimony.
    You state, the United States lacked comprehensive risk-
mapping that is sufficiently down-scaled to inform Americans. I 
agree with you. Would you expand on that concept, please, 
because I think that is extremely important? Thank you.
    Ms. Hill. Well, thank you. Well, suppose you are a 
homeowner or prospective renter or you are a part-time mayor of 
a small town somewhere and you want to figure out what are the 
risks I am going to face, my community faces, you cannot get an 
answer to that today. In the world's wealthiest Nation, you 
cannot get to a property-level answer.
    You might be able to get it if you have a lot of money and 
could pay a consultant, but that is no way for us to operate in 
the United States. Everyone should be able to determine what is 
ahead and then make better decisions going forward.
    That will take an enormous investment by the Federal 
Government, but it is one we need to make now, and we will see 
if we don't, that we will have developed in areas that are at 
greatest risk in ways that are risky, and then we will have 
even greater economic impacts in the future. So it is a step, 
very important step, the Nation needs to take now.
    Ms. Jackson Lee. Mr. Nye, just a quick question to you. 
Everybody says it is the buck, it is the buck, too expensive, 
and we can't go big on the American Jobs Plan, dealing with 
infrastructure, climate change, job creation.
    What do we say to those who want to use money, as I have 
asked Ms. Hill, to be an excuse for not going big on climate 
infrastructure rebuilds?
    Mr. Nye. Well, try what I say to all climate change--
sometimes they call themselves extreme skeptics. What is it 
about it that you think is not true? What is it about the 
situation you think that makes you mistrust all the world's 
scientists?
    Then, in Texas, you are the perfect--in a grim way--a very 
good example of the money you could save by addressing climate 
change. The estimates--the latest estimates of the last 
blackout were $130 billion. That certainly could have been a 
fraction of that. I have seen 2 numbers, but let's say about $4 
billion, as a fraction of what it will ultimately cost to deal 
with that.
    By the way, we are all going to pay for it. It is the 
United States. We are all in this together. So what we want to 
do is anticipate this, not in a disrespectful way, but you 
guys, we have got to take care of this. We got to take care of 
each other. So, I say all the time, this is doable, and the 
longest journey starts with a single step. Let's get going.
    On the social justice issue, or whatever it is called--
diversity, inclusion, equity, intersectionality--everybody, 
when you have people living near you who are disadvantaged, it 
affects everybody's quality of life.
    Certainly it affects the disadvantaged people, people who 
live at lower elevations, the flood hits them harder, they have 
to move and so on. But it affects everybody because we are in 
this together, and we all end up having to take care of each 
other.
    Now this sounds like common sense, but I understand that 
your job is quite difficult because you have to do these big 
negotiations. But I want everybody to embrace the idea that 
taking care of each other actually saves money. We actually 
come out ahead when we anticipate these problems and address 
them before there is a cold snap and the grid goes down.
    Ms. Jackson Lee. Thank you very much.
    Thank you, Madam Chair. Thank you all for this very good 
hearing. Thank you.
    Mrs. Demings. Thank you. The gentlewoman's time has 
expired.
    With that, I want to thank the witnesses for their valuable 
testimony and, to our Members, for your questions.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Without objection, the subcommittee stands adjourned.
    Thank you all so very much. Take care. Stay safe.
    [Whereupon, at 4:03 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
